<html>
<title> - IRAN'S BALLISTIC MISSILE AND WEAPONS OF MASS DESTRUCTION PROGRAMS</title>
<body><pre>[Senate Hearing 106-800]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 106-800

   IRAN'S BALLISTIC MISSILE AND WEAPONS OF MASS DESTRUCTION PROGRAMS

=======================================================================



                                HEARING

                               before the

               INTERNATIONAL SECURITY, PROLIFERATION, AND
                     FEDERAL SERVICES SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 21, 2000

                               __________

      Printed for the use of the Committee on Governmental Affairs



                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
68-305                     WASHINGTON : 2000


_______________________________________________________________________
For sale by the Superintendent of Documents, Congressional Sales Office
         U.S. Government Printing Office, Washington, DC 20402


                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   FRED THOMPSON, Tennessee, Chairman
WILLIAM V. ROTH, Jr., Delaware       JOSEPH I. LIEBERMAN, Connecticut
TED STEVENS, Alaska                  CARL LEVIN, Michigan
SUSAN M. COLLINS, Maine              DANIEL K. AKAKA, Hawaii
GEORGE V. VOINOVICH, Ohio            RICHARD J. DURBIN, Illinois
PETE V. DOMENICI, New Mexico         ROBERT G. TORRICELLI, New Jersey
THAD COCHRAN, Mississippi            MAX CLELAND, Georgia
ARLEN SPECTER, Pennsylvania          JOHN EDWARDS, North Carolina
JUDD GREGG, New Hampshire
             Hannah S. Sistare, Staff Director and Counsel
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
                     Darla D. Cassell, Chief Clerk

                                 ------                                

      INTERNATIONAL SECURITY, PROLIFERATION, AND FEDERAL SERVICES 
                              SUBCOMMITTEE

                  THAD COCHRAN, Mississippi, Chairman
TED STEVENS, Alaska                  DANIEL K. AKAKA, Hawaii
SUSAN M. COLLINS, Maine              CARL LEVIN, Michigan
PETE V. DOMENICI, New Mexico         ROBERT G. TORRICELLI, New Jersey
ARLEN SPECTER, Pennsylvania          MAX CLELAND, Georgia
JUDD GREGG, New Hampshire            JOHN EDWARDS, North Carolina
                   Mitchel B. Kugler, Staff Director
              Richard J. Kessler, Minority Staff Director
                      Julie A. Sander, Chief Clerk



                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Cochran..............................................     1

                               WITNESSES
                      Thursday, September 21, 2000

Robert D. Walpole, National Intelligence Officer for Strategic 
  and Nuclear Programs, National Intelligence Council............     2
A. Norman Schindler, Deputy Director, DCI Nonproliferation Center    10
Dr. Stephen A. Cambone, Director of Research, Institute for 
  National Strategic Studies of the National Defense University..    23
Michael Eisenstadt, Senior Fellow, Washington Institute for Near 
  East Policy....................................................    32

                      Alphabical List of Witnesses

Cambone, Dr. Steven A.:
    Testimony....................................................    23
    Prepared statement...........................................    27
Eisenstadt, Michael:
    Testimony....................................................    32
    Prepared statement...........................................    36
Schindler, A. Norman:
    Testimony....................................................    10
    Prepared statement...........................................    12
Walpole, Robert D.:
    Testimony....................................................     2
    Prepared statement...........................................     7

                                Appendix

Announcement of the Voice of The Islamic Republic of Iran Rodeo 
  1, article from FBIS, dated September 21, 2000, entitled 
  ``Iran: Shahab-3 `Non-Military' Missile `Successfully' Test-
  Fired''........................................................    45
Article from the Washington Times, February 9, 2000, ``N. Korea 
  Sells Iran Missile Engines,'' by Bill Gertz....................    45

 
   IRAN'S BALLISTIC MISSILE AND WEAPONS OF MASS DESTRUCTION PROGRAMS

                              ----------                              


                      THURSDAY, SEPTEMBER 21, 2000


                                     U.S. Senate,  
                Subcommittee on International Security,    
                     Proliferation, and Federal Services,  
                   of the Committee on Governmental Affairs
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:38 p.m. in 
room SD-342, Senate Dirksen Building, Hon. Thad Cochran, 
Chairman of the Subcommittee, presiding.
    Present: Senator Cochran.

              OPENING STATEMENT OF SENATOR COCHRAN

    Senator Cochran. The Subcommittee will please come to 
order.
    Let me note at the outset that the Senate is in session and 
there had been an objection made to committees of the Senate 
meeting today during the session of the Senate. I have checked 
with the Parliamentarian on the rule and was advised that the 
sanction or prohibition relates to legislation that might be 
reported out at a meeting of the Committee that occurs during a 
session of the Senate, so that any legislation that is reported 
at such a meeting would be subject to a point of order if 
called up in the Senate.
    We have no intention of meeting for the purpose of 
reporting out any legislation at today's session. And so, with 
the hope that that understanding is correct as a result of my 
discussion with the Parliamentarian, we will proceed with the 
hearing at which witnesses have agreed to testify on the 
subject of Iran's ballistic missile and weapons of mass 
destruction programs.
    We welcome all of you to today's hearing, and observe that 
in 1995, the Intelligence Community assessed that Iran had 
neither the motivation nor the technical and economic resources 
to build an intercontinental ballistic missile. That assessment 
has changed. In the last 5 years, as the Intelligence Community 
now recognizes, Iran has made rapid progress in the development 
of longer-range ballistic missiles because of assistance from 
North Korea, Russia, and China.
    Iran is now on the threshold of developing a missile with 
intercontinental ranges. One option available to Iran is to 
develop missiles similar to North Korea's Taepo Dong-1 or Taepo 
Dong-2 using technology North Korea has already transferred to 
Iran or may transfer in future sales. According to the 
Intelligence Community, a missile could be flight tested within 
the next few years. Another option is to develop a long-range 
ballistic missile using technology and assistance from Russia 
and other countries, which Intelligence Community officials 
have testified could be flight tested as early as 2005.
    The substantial assistance Iran continues to receive from 
foreign missile suppliers is an indication of Iran's interest 
in the development of long-range ballistic missiles. This 
assistance will continue to accelerate Iran's capabilities, 
though as a result of all the assistance it has already 
received Iran now has the capability to do much on its own.
    Beyond its own efforts to develop and acquire more advanced 
ballistic missiles, Iran has also become a supplier of 
ballistic missile technology and assistance to other nations. 
Unclassified reports from the Intelligence Community have 
identified Iran as a supplier of both Scud missile technology 
and solid-propellant missile technology to Syria. Press reports 
have also linked Iran to other ballistic missile programs, 
including Libya's. In testimony to the Senate earlier this 
year, Director of Central Intelligence Tenet said, ``Iran's 
existence as a secondary supplier of this technology to other 
countries is the trend that worries me the most.''
    Iran's Minister of Defense announced a few hours ago that a 
Shahab-3 ballistic missile has been tested successfully earlier 
today.\1\
---------------------------------------------------------------------------
    \1\ The copy of the announcement appears in the Appendix on page 
45.
---------------------------------------------------------------------------
    Iran also continues its aggressive pursuit of nuclear, 
biological, and chemical weapons.
    Our witnesses today will help us examine the extent and 
pace of Iran's ballistic missile and weapons of mass 
destruction programs, as well as the prospects for, and 
consequences of continued proliferation cooperation between 
countries like Iran and North Korea.
    Our witnesses today are: Robert Walpole, the Intelligence 
Community's National Intelligence Officer for Strategic and 
Nuclear Programs; A. Norman Schindler, the Deputy Director of 
the Director of Central Intelligence's Nonproliferation Center; 
Dr. Stephen Cambone, the former Staff Director for the Rumsfeld 
Commission; and Michael Eisenstadt, who is a Senior Fellow at 
the Washington Institute for Near East Policy.
    Before we begin, I would like to remind all participants 
that this hearing is being held at the unclassified level.
    Mr. Walpole, we appreciate your attendance. We know you 
have prepared a statement for our Subcommittee. We will print 
that statement in the record in its entirety and we encourage 
you to make whatever summary comments from the statement you 
think would be helpful to the Subcommittee. You may proceed.

 TESTIMONY OF ROBERT D. WALPOLE, NATIONAL INTELLIGENCE OFFICER 
   FOR STRATEGIC AND NUCLEAR PROGRAMS, NATIONAL INTELLIGENCE 
                            COUNCIL

    Mr. Walpole. Mr. Chairman, thank you for the opportunity to 
appear in an open session to discuss our assessments of Iran's 
missile programs and programs for weapons of mass destruction. 
Open sessions give the public a brief glimpse at the important 
work that we in the Intelligence Community do for national 
security. But as you know, much of our knowledge of Iran's 
weapons programs is based on extremely sensitive sources and 
methods; it must remain classified or left unsaid in an open 
session. Thus, many of the details will have to be summarized 
here. We can provide additional details in classified briefings 
to you or other Senators if they so desire. We hope the 
summaries we give today will be of use to this Subcommittee and 
to the public.
    The worldwide proliferation of ballistic missiles and 
weapons of mass destruction continues to evolve. Short- and 
medium-range missiles, particularly if armed with weapons of 
mass destruction, already pose a significant threat overseas to 
U.S. interests, forces, and allies. Moreover, the proliferation 
of missile technology and components continues, contributing to 
longer-range systems. Development efforts, in many cases fueled 
by foreign assistance, have led to new capabilities, as 
illustrated by Iran's Shahab-3 launches in 1998 and 2000, and 
North Korea's Taepo Dong-1 space launch attempt in August 1998. 
Also disturbing, some of the countries that were formerly 
recipients of technology have now been disseminating that to 
others.
    The Intelligence Community continues to project that during 
the next 15 years the United States most likely will face ICBM 
threats from North Korea, probably from Iran (the focus of 
today's hearing), and possibly from Iraq--barring significant 
changes in their political orientations. These threats are, of 
course, in addition to long-standing threats from Russia and 
China.
    That said, the threat facing the United States in the year 
2015 will depend on our evolving relations with foreign 
countries, the political situation and economic issues in those 
countries, and numerous other factors that we cannot predict 
with confidence. For example, our current relations with Russia 
are significantly different than any one would have forecast 15 
years ago. Important changes could develop in Iran and in 
Iran's external threat environment over the next 15 years. Iran 
is in a period of domestic dynamism, with its parliament and 
other institutions engaged in a vibrant and potentially 
tumultuous debate about change and reform. At the present time 
and at least for the next 3 years, we do not believe that 
national debate is likely to produce any fundamental change in 
Iran's national security policies and programs.
    Recognizing the significant uncertainties surrounding 
projections 15 years into the future and the potential for 
reformers' success in Iran, we have projected Iranian ballistic 
missile trends and capabilities into the future largely based 
on assessed technical capabilities, and with the general 
premise that Iran's relations with the United States and 
related threat perceptions will not change significantly enough 
to alter Tehran's intentions. As changes occur, of course, our 
assessment of the threat will change as well.
    The new missile threats from Iran and others are far 
different from those in the Cold War. The emerging threats are 
going to involve smaller missiles, less accurate, less 
reliable, fewer missiles than we have seen in the past. Even 
so, the missiles will be threatening. North Korea's space 
launch attempt demonstrated, in ways that words alone could 
not, that the new long-range missile threat is moving from 
hypothetical to real.
    Moreover, many of the countries developing longer-range 
missiles probably assess that the threat of their use would 
complicate American decisionmaking during crises; increase the 
cost of a victory and deter the United States from pursuing 
certain objectives; and provide independent deterrent and war-
fighting capabilities. They would see the threat of the use 
rather than the use of these weapons as providing them 
deterrence, coercive diplomacy, and prestige. Some of the 
systems would be for political impact; others may be built to 
perform specific military missions--facing the United States 
with a spectrum of motivations, development timelines, and 
hostile capabilities.
    The probability that a missile with a weapon of mass 
destruction would be used against U.S. forces or interests is 
higher today than during most of the Cold War, and will 
continue to grow. This is because many more nations now have 
them, and we have also seen ballistic missiles used against 
U.S. forces during the Gulf War. Although the missiles used 
then did not have weapons of mass destruction warheads, Iraq 
had weaponized ballistic missile warheads with biological and 
chemical weapon agents and they were available for use. Some of 
the regimes controlling missiles have weapons of mass 
destruction programs and have exhibited the intention to use 
those even without missiles. Then we have non-state entities 
that are seeking weapons of mass destruction.
    In fact, in the coming years, we project that U.S. 
territory is probably more likely to be attacked with weapons 
of mass destruction from non-missile delivery means than by 
missiles, primarily because the non-missile delivery means are 
less costly, easier to acquire, more reliable and accurate. But 
the missile threat will continue to grow, in part because the 
missiles have become important regional weapons in numerous 
countries' arsenals, and they provide a level of prestige, 
coercive diplomacy, and deterrence that non-missile means do 
not.
    Iran has very active missile and weapon of mass destruction 
development programs, and is seeking foreign missile, chemical, 
biological, and nuclear technologies. Iran's ballistic missile 
program is one of the largest in the Middle East. Tehran 
already has deployed hundreds of short-range ballistic 
missiles, covering most of Iraq and many strategic targets in 
the Persian Gulf. It will soon deploy the 1,300 kilometer range 
Shahab-3 medium-range ballistic missile, which will allow it to 
reach Israel and most of Saudi Arabia and Turkey.
    And at this point, let me address this announcement that 
you mentioned on the Shahab-3. I would be very careful how much 
credibility we apply to public announcements like this. This is 
not the first such launch. The announcement said it was the 
first launch. This is the third. It says that it was for non-
missile and non-military purposes. We view it as a missile not 
a space launch vehicle, it is not designed for that. And then 
they say it was successful. We are analyzing the data from the 
launch and will be able to tell you more on that. But I would 
just say be careful when we get public announcements like this, 
when they get two things so clearly wrong, that we are not 
swallowed up with the rest of it as well.
    Tehran probably has a small number of Shahab-3s available 
for use in a conflict, and it has announced that production and 
deployment has begun. In fact, it has even displayed three 
Shahab-3s along with a mobile launcher and other ground support 
equipment. That display even had a range and a payload size on 
it, and it is not what I would consider to be a non-military 
display.
    Iran's public statements suggest that it plans to develop 
longer-range delivery systems. Although Tehran stated that the 
Shahab-3 is Iran's last military missile, at that point they 
stated it, we are concerned that Iran will use future systems 
in a military role.
    Iran's Defense Minister announced the development of the 
Shahab-4, originally calling it a more capable ballistic 
missile than the Shahab-3, but later categorizing it as a space 
launch vehicle with no military applications.
    Tehran also mentioned plans for the Shahab-5, strongly 
suggesting that it intends to develop even longer-range systems 
in the near future.
    Iran has displayed a mock-up satellite and space launch 
vehicle, suggesting it plans to develop a vehicle to orbit 
Iranian satellites. However, Iran, like any other country, 
could convert a space launch vehicle into a missile by 
developing a reentry vehicle for it.
    Foreign assistance continues to be a problem. Entities in 
Russia, North Korea, and China supply the largest amount of 
ballistic missile-related goods, technology, and expertise to 
Iran.
    Let me walk through where we are with the threat. Last 
year's threat assessment walked country-by-country. Since we 
are looking at a specific country, I am going to walk through 
time blocks. I will start with today and then look 5 years out, 
and then another 5 years out.
    Today, we judge that like many others, Iran views its 
regional concerns as a primary factor in tailoring its military 
programs. Tehran sees its short- and medium-range missiles not 
only as deterrents but also as force-multiplying weapons of 
war. On July 15, they conducted the second test of the Shahab-
3, and of course today the third. We assess that Iran's 
interest in eventually developing an ICBM and space launch 
capability has not changed.
    In the 2001 to 2005 timeframe, we believe that Iran is more 
likely to develop an intermediate-range ballistic missile based 
on Russian technology before developing an ICBM based on that 
technology, because of the regional concerns I mentioned 
earlier. Iran could test an IRBM, intermediate-range ballistic 
missile, before the end of this 5-year period.
    Now let me talk a little bit about what we say Iran could 
do, and then talk about what they can likely do. We have both 
judgments, just like we did in last year's estimate.
    Some analysts believe that Iran could test an ICBM or space 
launch vehicle patterned after the North Korean Taepo Dong-1 in 
the next few years. Such a system would be capable of 
delivering biological or chemical payloads to the United 
States. Nevertheless, all assess that Iran would be unlikely to 
deploy an ICBM version of the Taepo Dong-1. It just does not 
serve all of their needs.
    Most believe that Iran could develop and test a three-stage 
Taepo Dong-2 type ICBM during this same timeframe, possibly 
with North Korean assistance. It would be capable of delivering 
a nuclear weapon-sized payload to the United States. A few 
believe that the hypothetical routes toward an Iranian ICBM are 
less plausible than they appeared in our analysis last year and 
believe that Iran will not be able to test any ICBM during this 
time period. So last year we had agreement on what Iran could 
do. Now we have even some disagreement on the could.
    Now more on the likelihood judgments. Some believe that 
Iran is likely to try to demonstrate a rudimentary ICBM booster 
capability as soon as possible, and that a Taepo Dong-type 
system, tested as a space launch vehicle, would be the shortest 
path to that goal. Others believe that Iran is unlikely to test 
any ICBM during this period.
    Now let's shift to the next 5 years, 2006 to 2010. Most 
believe that Iran will likely test an IRBM--probably based on 
Russian assistance--during this period. All assess that Iran 
could test an ICBM that could deliver nuclear weapon-sized 
payloads to many parts of the United States in the latter half 
of the next decade, using Russian technology obtained over the 
years.
    Some further believe that Iran is likely to test an ICBM 
before 2010. Others believe there is no more than an even 
chance of an ICBM test before 2010. And a few believe that Iran 
is unlikely to test an ICBM before 2010.
    So you can see when we start looking at likelihoods, we get 
a spectrum of views.
    Nevertheless, most agree that Iran is likely to test a 
space launch vehicle by 2010. And as I indicated earlier, such 
a space launch vehicle could be converted into an ICBM. A few 
believe that such a test is still unlikely before 2010.
    Now let's look at the 2011 to 2015 time period. Most 
believe that Iran is likely to test an ICBM, possibly as a 
space launch vehicle, before 2015. Some believe, in fact, that 
this is very likely. A few believe that there is less than an 
even chance of a test of an Iranian ICBM by 2015.
    Sales of ICBMs or space launch vehicles, which have 
inherent ICBM capabilities, could increase an Iranian ability 
to threaten the United States with a missile strike sooner than 
we have laid out here. North Korea has demonstrated a 
willingness to sell its missiles and technologies and could 
continue doing so, perhaps under the guise of selling space 
launch vehicles. We judge that a Russian or Chinese sale of an 
ICBM or SLV in the next 15 years is unlikely, although the 
consequences of such sales, especially if it were mobile, would 
be extremely serious.
    Some countries, perhaps including Iran, probably have 
devised other means for delivering weapons of mass destruction 
to the United States, some cheaper and more reliable than 
missiles that we have talked about here. The goal would be to 
move the chemical or biological weapons closer to the United 
States without needing a missile to do it. Now you could either 
build the weapon in the United States and use it in the United 
States, or you could bring a ship with a shorter-range system, 
like a Scud strapped to the ship, close to the United States 
and strike. It would have reduced accuracy, but the reduced 
accuracy would be better than some of the ICBMs that we have 
even discussed here.
    Many of the countries, such as Iran, probably will rely 
initially on readily available technologies to develop 
penetration aids and countermeasures. And in last year's 
report, we listed a whole bunch of countermeasure technologies 
that would be readily available, so I will not go into that 
list here. But they could develop countermeasures based on 
those technologies by the time they flight-test their missiles. 
More advanced technologies would take longer.
    Let me turn now to Norman Schindler, he is, as you 
indicated, Deputy Director of the Nonproliferation Center, to 
discuss Iran's programs to develop weapons of mass destruction. 
After he goes through his opening remarks, then we would be 
prepared to answer questions on the whole thing.
    [The prepared statement of Mr. Walpole follows:]

                PREPARED STATEMENT OF ROBERT D. WALPOLE

    Mr. Chairman, members of this subcommittee, thank you for the 
opportunity to appear today in an open session to discuss our 
assessments of the Iranian missile and weapons of mass destruction 
threat to the United States in coming years. Open sessions give the 
public a brief glimpse at the important work the Intelligence Community 
performs for the security of our nation. But as you know, much of our 
knowledge on Iran's weapons programs is based on extremely sensitive 
sources and methods; it must remain classified to aid in our nation's 
security. Thus, many details will have to be summarized or left unsaid 
in open session. We can provide additional details in classified 
briefings to you or other Senators if you so desire. We hope our 
summaries today will be of use to the Subcommittee and the public.

The Evolving Missile Threat in the Current Proliferation Environment.

    The worldwide proliferation of ballistic missiles and weapons of 
mass destruction continues to evolve. Short- and medium-range ballistic 
missiles, particularly if armed with weapons of mass destruction, 
already pose a significant threat overseas to U.S. interests, military 
forces, and allies. Moreover, the proliferation of missile technology 
and components continues, contributing to longer-range systems. 
Development efforts, in many cases fueled by foreign assistance, have 
led to new capabilities--as illustrated by Iran's Shahab-3 launches in 
July 1998 and July 2000 and North Korea's Taepo Dong-1 space launch 
attempt in August 1998. Also disturbing, some countries that 
traditionally have been recipients of missile technologies have become 
exporters.
    The Intelligence Community continues to project that during the 
next 15 years the United States most likely will face ICBM threats from 
North Korea, probably from Iran (the focus of today's hearing), and 
possibly from Iraq--barring significant changes in their political 
orientations. These threats are, of course, in addition to the long-
standing threats from Russia and China. That said, the threat facing 
the United States in the year 2015 will depend on our evolving 
relations with foreign countries, the political situation and economic 
issues in those countries, and numerous other factors that we cannot 
predict with confidence. For example, our current relations with Russia 
are significantly different than any one would have forecast 15 years 
ago. Important changes could develop in Iran and in Iran's external 
threat environment over the next 15 years. Iran is in a period of 
domestic dynamism, with its parliament and other institutions engaged 
in a vibrant and potentially tumultuous debate about change and reform. 
At the present time and for at least the next three years, we do not 
believe that national debate is likely to produce any fundamental 
change in Iran's national security policies and programs. Recognizing 
the significant uncertainties surrounding projections fifteen years 
into the future and the potential for reformers' success in Iran, we 
have projected Iranian ballistic missile trends and capabilities into 
the future largely based on assessed technical capabilities, with a 
general premise that Iran's relations with the United States and 
related threat perceptions will not change significantly enough to 
alter Tehran's intentions. As changes occur, our assessment of the 
threat will change as well.
    The new missile threats from Iran and others are far different from 
the Cold War. The emerging missile threats will involve considerably 
fewer missiles with less accuracy, yield, survivability, reliability, 
and range-payload capability than the hostile strategic forces we have 
faced for decades. Even so, the new systems are threatening. North 
Korea's space launch attempt demonstrated--in a way words alone could 
not--that the new long-range missile threat is moving from hypothetical 
to real. Moreover, many of the countries developing longer-range 
missiles probably assess that the threat of their use would complicate 
American decision making during crises; increase the cost of a U.S. 
victory; potentially deter Washington from pursuing certain objectives; 
and provide independent deterrent and war-fighting capabilities. Some 
of these countries may believe that testing these systems only as 
SLVs--without a reentry vehicle--may achieve deterrence, coercive 
diplomacy, and prestige goals without risking the potential negative 
political and economic costs of a long-range missile test.
    Acquiring long-range ballistic missiles armed with weapons of mass 
destruction will increase the possibility that weaker countries could 
deter, constrain, and harm the United States. The missiles need not be 
deployed in large numbers. They need not be highly accurate or 
reliable; their strategic value is derived from the threat of their 
use, not the near certain outcome of such use. Some may be intended for 
political impact; others may be built to perform more specific military 
missions--facing the United States with a spectrum of motivations, 
development timelines, and hostile capabilities. In many ways, they are 
not envisioned at the outset as operational weapons of war, but as 
strategic weapons of deterrence and coercive diplomacy.
    The probability that a missile with a weapon of mass destruction 
would be used against U.S. forces or interests is higher today than 
during most of the Cold War, and will continue to grow. More nations 
have them, and ballistic missiles were used against U.S. forces during 
the Gulf War. Although the missiles used in the Gulf War did not have 
WMD warheads, Iraq had weaponized ballistic missile warheads with BW 
and CW agents and they were available for use. Some of the regimes 
controlling missiles have exhibited a willingness to use weapons of 
mass destruction with other delivery means. In addition, some non-state 
entities are seeking weapons of mass destruction, and would be willing 
to use them without missiles. In fact, we project that in the coming 
years, U.S. territory is probably more likely to be attacked with 
weapons of mass destruction from non-missile delivery means (most 
likely from non-state entities) than by missiles, primarily because 
non-missile delivery means are less costly, easier to acquire, and more 
reliable and accurate. But the missile threat will continue to grow, in 
part because these missiles have become important regional weapons in 
numerous countries' arsenals, and they provide a level of prestige, 
coercive diplomacy, and deterrence that non-missile means do not.

Iran, Missiles, and WMD.

    Iran has very active missile and WMD development programs, and is 
seeking foreign missile, nuclear, chemical, and biological 
technologies. Iran's ballistic missile program is one of the largest in 
the Middle East. Tehran already has deployed hundreds of short-range 
(150-500 km) ballistic missiles, covering most of Iraq and many 
strategic targets in the Persian Gulf. It will soon deploy the 1,300 
km-range Shahab-3 medium-range ballistic missile, which will allow Iran 
to reach Israel and most of Saudi Arabia and Turkey. Tehran probably 
has a small number of Shahab-3s available for use in a conflict; it has 
announced that production and deployment has begun, and it has publicly 
displayed three Shahab-3s along with a mobile launcher and other ground 
support equipment.
    Iran's public statements suggest that it plans to develop longer-
range delivery systems. Although Tehran stated that the Shahab-3 is 
Iran's last military missile, we are concerned that Iran will use 
future systems in a military role.
    <bullet> LIran's Defense Minister announced the development of the 
Shahab-4, originally calling it a more capable ballistic missile than 
the Shahab-3, but later categorizing it as an SLV with no military 
applications.
    <bullet> LTehran has also mentioned plans for a Shahab-5, strongly 
suggesting that it intends to develop even longer-range ballistic 
missiles in the near future.
    <bullet> LIran has displayed a mock-up satellite and SLV, 
suggesting it plans to develop a vehicle to orbit Iranian satellites. 
However, Iran could convert an SLV into a missile by developing a 
reentry vehicle.
    Foreign Assistance. Entities in Russia, North Korea, and China 
supply the largest amount of ballistic missile-related goods, 
technology, and expertise to Iran. Tehran is using this assistance to 
develop new ballistic missiles and to achieve its goal of becoming 
self-sufficient in the production of existing systems. China provided 
complete CSS-8 SRBMs, North Korean equipment and technical assistance 
helped Iran establish the capability to produce Scud SRBMs, and Russian 
assistance accelerated Iranian missile development.

Iranian Missile Threats to the United States and Its Interests.
    Today. We judge that like many others, Iran views its regional 
concerns as one of the primary factors in tailoring its programs. 
Tehran sees its short- and medium-range missiles not only as deterrents 
but also as force-multiplying weapons of war, primarily with 
conventional weapons, but with options for delivering biological, 
chemical, and eventually nuclear weapons. On 15 July of this year, Iran 
conducted a second test of its Shahab-3. We assess that Iran's interest 
in eventually developing an ICBM/space launch capability has not 
changed.
    2001-2005. We believe Iran is more likely to develop an 
intermediate-range ballistic missile (IRBM) based on Russian technology 
before developing an ICBM using that technology. Iran could test such 
an IRBM before the end of this period.
    First, what could Iran do during this period. Some analysts believe 
that Iran could test an ICBM or SLV patterned after the North Korean 
TD-1 SLV in the next few years; such a system would be capable of 
delivering BW/CW payloads to the United States. Nevertheless, all 
assess that Iran would be unlikely to deploy an ICBM version of the TD-
1.
    Most believe that Iran could develop and test a three-stage TD-2-
type ICBM during this period, possibly with North Korean assistance; it 
would be capable of delivering a nuclear weapon-sized payload to the 
United States. A few believe that the hypothetical routes toward an 
Iranian ICBM are less plausible than they appeared in our analysis last 
year and believe that Iran will not be able to test any ICBM in the 
2001-2005 time frame.
    Now to our likelihood assessments. Some believe that Iran is likely 
to try to demonstrate a rudimentary ICBM booster capability as soon as 
possible; a Taepo Dong-type system--likely tested as an SLV without an 
RV impact downrange--would be the shortest path to this goal. Finally, 
others believe Iran is unlikely to test any ICBM during this period.
    2006-2010. Most believe Iran will likely test an IRBM--probably 
based on Russian assistance--during this period.
    All assess that Iran could flight test an ICBM that could deliver 
nuclear weapon-sized payloads to many parts of the United States in the 
latter half of the next decade, using Russian technology obtained over 
the years.
    Some further believe Iran is likely to test an ICBM--possibly as an 
SLV without an RV impact downrange--before 2010; others believe there 
is no more than an even chance that Iran will test an ICBM--probably 
based on Russian assistance--capable of threatening the United States 
by 2010; and a few believe an ICBM test is unlikely in this period.
    Nevertheless, most agree that Iran is likely to test an SLV by 
2010. Such a vehicle could be converted into an ICBM capable of 
delivering a nuclear weapon-sized payload to the United States. A few 
believe such a test is unlikely until after 2010.
    2011-2015. Most believe Iran is likely to test an ICBM--possibly as 
an SLV without an RV impact downrange--before 2015, some believe this 
is very likely; a few believe that there is less than an even chance of 
an Iranian ICBM test by 2015.
    Sales of complete ICBMs or SLVs. Sales of ICBMs or SLVs, which have 
inherent ICBM capabilities, could further increase an Iranian ability 
to threaten the United States with a missile strike. North Korea has 
demonstrated a willingness to sell its missiles and related 
technologies and could continue doing so, perhaps under the guise of 
selling SLVs. Although we judge that Russia or China are unlikely to 
sell an ICBM or SLV in the next 15 years, the consequences of such 
sales, especially if mobile systems were involved, would be extremely 
serious.
    Alternative Threats to the United States. Some countries, perhaps 
including Iran, probably have devised other means to deliver weapons of 
mass destruction to the United States--some cheaper and more reliable 
and accurate than ICBMs that have not completed rigorous testing and 
validation programs. The goal would be to move the weapon within 
striking distance without a long-range ICBM. These alternative threats 
include preparing chemical or biological weapons in the United States 
and using them in large population centers; and deploying short- and 
medium-range missiles on surface ships--which can be readily done, 
especially if the attacking country is not concerned about accuracy. 
The reduced accuracy in such a case, however, would be better than that 
of some of the ICBMs I mentioned earlier.
    Ballistic Missile Defense Countermeasures. Many countries, such as 
Iran, probably will rely initially on readily available technologies to 
develop penetration aids and countermeasures, including: separating 
RVs, radar absorbent material, booster fragmentation, jammers, chaff, 
and decoys. These countries could develop some countermeasures by the 
time they flight-test their missiles. More advanced technologies could 
be available over the longer term. Some of the factors that will 
influence a nation's countermeasures include: the effectiveness weighed 
against their cost, complexity, reduction in range-payload capability; 
foreign assistance; and the ability to conduct realistic tests.

Iran's Weapons of Mass Destruction Programs.

    Let me turn now to Mr. A. Norman Schindler, Deputy Director of the 
DCI's Nonproliferation Center (NPC), which recently published its 721 
report related to this issue, to talk about Iran's programs to develop 
weapons of mass destruction.
    Following his remarks, we will both be available to answer those 
questions that we can while still protecting sources and methods. We 
would not want this session to inadvertently facilitate Iran's efforts 
at hiding its work from us.

    Senator Cochran. Thank you, Mr. Walpole.
    Mr. Schindler, welcome. You may proceed.

    TESTIMONY OF A. NORMAN SCHINDLER, DEPUTY DIRECTOR, DCI 
                    NONPROLIFERATION CENTER

    Mr. Schindler. Thank you, Mr. Chairman. As Mr. Walpole 
indicated, I will provide a summary of Iran's WMD programs, the 
programs designed to produce the weapons to be delivered by the 
missile systems that Mr. Walpole described, as well as by other 
delivery means.
    The Iranians regard these as extremely sensitive programs 
and go to great lengths to hide them from us. As a result, our 
knowledge of these programs is based on extremely sensitive 
sources and methods. This precludes me, as Mr. Walpole 
indicated earlier, from providing many details. But we hope 
this summary will nonetheless be useful, and we would be 
prepared to elaborate in greater detail on all of these issues 
in a classified setting.
    Mr. Chairman, I would like to begin with a few comments on 
Iran's nuclear and nuclear weapons program. The Intelligence 
Community judges that Iran is actively pursuing the acquisition 
of fissile material and the expertise and technology necessary 
to form the material into nuclear weapons. As part of this 
process, Iran is attempting to develop the capability to 
produce both plutonium and highly-enriched uranium.
    Iran is seeking nuclear-related equipment, material, and 
technical expertise from a variety of foreign sources, 
especially in Russia. Tehran claims that it is attempting to 
master nuclear technology for civilian research and nuclear 
energy programs. However, in that guise it is developing whole 
facilities, such as a uranium conversion facility, that could 
be used to support the production of fissile material for a 
nuclear weapon.
    Despite international efforts to curb the flow of critical 
technologies and equipment, Tehran continues to seek fissile 
material and technology for weapons development and has 
established an elaborate system of covert military and civilian 
organizations to support its acquisition goals.
    Cooperation with foreign suppliers is helping Iran augment 
its nuclear technology infrastructure, which in turn will be 
useful in supporting nuclear weapons research and development. 
The expertise and technology gained, along with the commercial 
channels and contacts established, even from cooperation that 
appears strictly civilian in nature, could be used to advance 
Iran's nuclear weapons effort.
    Case in point. Work continues on the construction of a 
1,000-megawatt nuclear power reactor at Bushehr that will be 
subject to IAEA safeguards. This project will not directly 
support a weapons effort, but it affords Iran broad access to 
Russia's nuclear industry in the process.
    We also have evidence that Russian entities are interacting 
with Iranian nuclear research centers on a wide variety of 
activities beyond the Bushehr project. Many of these projects 
also have direct application to the production of weapons-grade 
fissile material.
    China pledged in 1997 not to engage in any new nuclear 
cooperation with Iran but said it would complete two ongoing 
projects. One of those--a small research reactor--has since 
been completed, and progress is still being made on a zirconium 
production facility that Iran will use to produce cladding for 
nuclear fuel. It is our assessment that China is abiding by its 
pledge not to engage in new nuclear activity with Iran.
    Mr. Chairman, the Intelligence Community continues to 
monitor developments in the Iranian nuclear program and nuclear 
energy program very carefully. We regularly provide classified 
assessments of the progress that Iran is making to the 
Administration, to U.S. war-fighters, and to the Congress as a 
result of the importance of this issue. However, we are 
reluctant to provide additional details in an unclassified 
setting as to what timelines we believe exist for the Iranians 
to develop a nuclear weapon.
    I would like to turn now to Iran's chemical warfare (CW) 
program, which is one of the largest in the Third World. Iran 
launched its offensive CW program in the early 1980's in 
response to Baghdad's use of CW during the Iran-Iraq war. We 
believe the program remains active despite Tehran's decision in 
1997 to ratify the Chemical Weapons Convention. Iran has a 
large and growing CW production capacity, and already has 
produced a number of CW agents, including nerve, blister, 
choking, and blood agents. We believe in addition that it 
possesses a significant stockpile of weaponized and bulk agent 
and we think that this amounts to actually several thousand 
tons.
    Tehran's goals for its CW program for the past decade have 
been to expand its production capability and stockpile, reach 
self-sufficiency by acquiring the means to manufacture chemical 
production equipment and precursors, and to diversify its CW 
arsenal by producing more sophisticated and lethal agents and 
munitions.
    Tehran continues to seek production technology, training, 
expertise, and chemicals that could be used as precursors from 
entities in Russia and China. It also seeks through 
intermediaries in other countries equipment and material that 
could be used to develop a more advanced and self-sufficient CW 
infrastructure.
    Thus far, Iran remains dependent on external suppliers for 
technology, equipment, and precursors. However, we judge that 
Tehran is rapidly approaching self-sufficiency and could become 
a supplier of CW-related materials to other nations.
    Iran's biological weapons (BW) program also was initiated 
in the 1980's during the Iran-Iraq war. The program is in the 
late stages of research and development, but we believe Iran 
already holds some stocks of BW agents and weapons. Tehran 
probably has investigated both toxins and live organisms as BW 
agents, and for BW dissemination could use many of the same 
delivery systems--such as artillery and aerial bombs--that it 
has in its CW inventory.
    Iran has the technical infrastructure to support a 
significant BW program. It conducts top-notch legitimate 
biomedical research at various institute, which we suspect also 
provide support to the BW program.
    Tehran is expanding its efforts to acquire biotechnical 
materials, equipment, and expertise from abroad, primarily from 
entities in Russia and Western Europe. Because of the dual-use 
nature of the equipment, Iran's ability to produce a number of 
both veterinary and human vaccines also gives it the capability 
to produce BW agents.
    At the same time Tehran continues to develop its BW 
capability, it is a party to the Biological Warfare Convention.
    Finally, Mr. Chairman, I would like to say a few words 
about Iran's motivations for pursuing its WMD programs.
    We assess that Tehran, no matter who is in power, will 
continue to develop and expand its WMD and ballistic missile 
programs as long as it perceives threats from the U.S. military 
forces in the Gulf, a nuclear-armed Israel, and Iraq. In 
addition, the deterrence posture or prestige factor associated 
with some of these programs are probably viewed by Iranian 
leaders as a means to achieve their goals of becoming the 
predominant power in the region.
    Mr. Chairman, that concludes our prepared statement. We 
would be delighted to attempt to answer your questions.
    [The prepared statement of Mr. Schindler follows:]

               PREPARED STATEMENT OF A. NORMAN SCHINDLER

    Mr. Chairman, as Mr. Walpole indicated, I will provide a summary of 
Iran's WMD programs--the programs designed to produce the weapons to be 
delivered by the missile systems Mr. Walpole described, as well as by 
other delivery means. The Iranians regard these as extremely sensitive 
programs and go to great lengths to hide them from us. As a result, our 
knowledge of these programs is based on extremely sensitive sources and 
methods. This precludes me from providing many details on the programs 
in open session. But I hope this summary will be of use to the 
Committee, and we are prepared to provide additional details in 
classified briefings.

Nuclear

    Mr. Chairman, I'd like to begin with a few comments on Iran's 
nuclear and nuclear weapons program. The Intelligence Community judges 
that Iran is actively pursuing the acquisition of fissile material and 
the expertise and technology necessary to form the material into 
nuclear weapons. As part of this process, Iran is attempting to develop 
the capability to produce both plutonium and highly-enriched uranium.
    Iran is seeking nuclear-related equipment, material, and technical 
expertise from a variety of foreign sources, especially in Russia. 
Tehran claims that it is attempting to master nuclear technology for 
civilian research and nuclear energy programs. However, in that guise 
it is developing whole facilities--such as a uranium conversion 
facility--that could be used to support the production of fissile 
material for a nuclear weapon.

    <bullet> LDespite international efforts to curb the flow of 
critical technologies and equipment, Tehran continues to seek fissile 
material and technology for weapons development and has established an 
elaborate system of covert military and civilian organizations to 
support its acquisition goals.

    Cooperation with foreign suppliers is helping Iran augment its 
nuclear technology infrastructure, which in turn will be useful in 
supporting nuclear weapons research and development. The expertise and 
technology gained, along with the commercial channels and contacts 
established--even from cooperation that appears strictly civilian in 
nature--could be used to advance Iran's nuclear weapons effort.

    <bullet> LWork continues on the construction of a 1,000-megawatt 
nuclear power reactor at Bushehr that will be subject to International 
Atomic Energy Agency (IAEA) safeguards. This project will not directly 
support a weapons effort, but it affords Iran broad access to Russia's 
nuclear industry.

    <bullet> LRussian entities are interacting with Iranian nuclear 
research centers on a wide variety of activities beyond the Bushehr 
project. Many of these projects have direct application to the 
production of weapons-grade fissile material.

    <bullet> LChina pledged in 1997 not to engage in any new nuclear 
cooperation with Iran but said it would complete two ongoing nuclear 
projects, a small research reactor and a zirconium production facility 
that Iran will use to produce cladding for reactor fuel. As a party to 
the Nuclear Nonproliferation Treaty (NPT), Iran is required to apply 
IAEA safeguards to nuclear fuel, but safeguards are not required for 
the zirconium plant or its products.

    Mr. Chairman, the Intelligence Community continues to monitor 
development in the Iranian nuclear and nuclear weapons programs 
carefully. We regularly provide classified assessments of the progress 
Iran is making to the Administration, U.S. warfighters, and the 
Congress. We are reluctant to provide additional details on the Iranian 
program--including when Iran might develop a nuclear weapon--in an 
unclassified setting.

Chemical

    I'd like to turn now to Iran's chemical warfare (CW) program. Iran 
launched its offensive CW program in the early 1980's in response to 
Baghdad's use of CW during the Iran-Iraq war. We believe the program 
remains active despite Tehran's decision to ratify the Chemical Weapons 
Convention (CWC). Iran has a large and growing CW production capacity 
and already has produced a number of CW agents, including nerve, 
blister, choking, and blood agents. We believe it possesses a stockpile 
of at least several hundred metric tons of weaponized and bulk agent.
    Tehran's goals for its CW program for the past decade have been to 
expand its production capability and stockpile, reach self-sufficiency 
by acquiring the means to manufacture chemical production equipment and 
precursors, and diversifiy its CW arsenal by producing more 
sophisticated and lethal agents and munitions.

    <bullet> LTehran continues to seek production technology, training, 
expertise and chemicals that could be used as precursors from entities 
in Russia and China. It also seeks through intermediaries in other 
countries equipment and material that could be used to develop a more 
advanced and self-sufficient CW infrastructure.

    <bullet> LThus far, Iran remains dependent on external suppliers 
for technology, equipment, and precursors. However, we judge that 
Tehran is rapidly approaching self-sufficiency and could become a 
supplier of CW-related materials to other nations.

Biological

    Iran's BW program also was initiated in the 1980's during the Iran-
Iraq war. The program is in the late stages of research and 
development, but we believe Iran already holds some stocks of BW agents 
and weapons. Tehran probably has investigated both toxins and live 
organisms as BW agents, and for BW dissemination could use many of the 
same delivery systems--such as artillery and aerial bombs--that it has 
in its CW inventory.

    <bullet> LIran has the technical infrastructure to support a 
significant BW program. It conducts top-notch legitimate biomedical 
research at various institutes, which we suspect also provide support 
to the BW program.

    <bullet> LTehran is expanding its efforts to acquire biotechnical 
materials, equipment, and expertise from abroad--primarily from 
entities in Russia and Western Europe. Because of the dual-use nature 
of the equipment, Iran's ability to produce a number of both veterinary 
and human vaccines also gives it the capability to produce BW agents.

    <bullet> LTehran continues to develop its BW capability despite 
being a party to the Biological Warfare Convention (BWC).

    Finally, Mr. Chairman, I'd like to say a word about Iran's 
motivations for pursuing it's WMD programs.
    We assess that Tehran--no matter who is in power--will continue to 
develop and expand its WMD and ballistic missile programs as long as it 
perceives threats from U.S. military forces in the Gulf, a nuclear-
armed Israel, and Iraq. In addition, the deterrence posture or prestige 
factor associated with some of these programs are probably viewed by 
Iranian leaders as a means to achieve their goals of becoming the 
predominant power in the region, asserting Iran's ideological 
leadership in the Muslim world, and diminishing Western--particularly 
U.S.--influence in the Gulf.
    Mr. Chairman, that concludes our prepared statement. Mr. Walpole 
and I will attempt to answer the Committee's questions within the 
constraints imposed on us by the need to protect sensitive sources and 
methods. We would be delighted to present the committee--or committee 
Members--with a more detailed assessment of Iran's WMD programs in a 
closed setting.

    Senator Cochran. Thank you very much, Mr. Schindler, Mr. 
Walpole.
    Let me ask you first of all about the announcement by 
Iran's Minister of Defense about the Shahab-3 test firing that 
occurred earlier today, that you commented on earlier. You told 
us to be cautious and that there were some errors in this 
announcement. One other thing occurs to us, and that is that 
there was a lag of about 2 years between the first and second 
Shahab-3 test, but a lag of only 2 months between the second 
test and today's third test. Is there any significance to the 
fact that Iran is decreasing the amount of time between the 
tests of its Shahab-3 missile?
    Mr. Walpole. I am not sure I would read anything into that. 
I have worked with flight-test programs of various countries in 
the past and tried to see if I could divine anything from that, 
and it is very hard to do, to pin down what is happening.
    As we have said in open session before, Iran procured No 
Dongs and then sought Russian assistance to modify that into 
the Shahab-3, which is a little different approach than 
Pakistan used to get the Ghauri, which is also a No Dong. They 
did not mind trying to change it, they just decided to change 
its name and buy them outright.
    And so when they are doing that type of development effort 
it really depends on how they want to push each individual 
window to get the system to work. So I am not sure that I would 
read the difference in time between today's launch and the July 
launch as indicating that anything has sped up, because we 
could go another 2 years before we see another launch and you 
would not have me here saying that they have slowed down just 
because there was a delay in it. So I would be careful about 
that.
    Senator Cochran. There has been some suggestion that 
because there have been some so-called moderates elected to 
office in Iran that Iran is changing. Does this affect the 
weapons of mass destruction and missile programs at all? Who 
actually controls these programs?
    Mr. Walpole. Well, as Mr. Schindler said toward the end of 
his remarks and I said kind of up front in mine, there is the 
potential for change. But we do not see this altering the 
interest in weapons of mass destruction and the interest in 
missile programs to deliver them. The threats are not going to 
go away--Iraq is not going to go away, their perception of 
Israel is not going to go away, even if relations change with 
the United States.
    That said, we do factor those types of changes into our 
assessments. When you do missile assessments, or almost any WMD 
assessment, you have to project many years out. Some of these 
missile programs can take a long time to develop. That is why 
we force ourselves to project 15 years out, knowing that there 
is great uncertainty in what things are going to look like 15 
years out. At the same time, we are mandated by Congress to do 
an annual assessment of the missile threat. So if we see a 
change occur in the government in Iran that would cause us to 
alter that judgment, we will let you know about it. But at this 
point, we are still holding firm to where we are with the 
judgment that probably Iran between now and the next 15 years.
    Senator Cochran. A specific question, as a follow up on 
that subject, is whether the election of President Khatami has 
made any substantial change in the program, and has he made any 
statements publicly to your knowledge in support of Iran's 
missile program?
    Mr. Schindler. I can read a statement that he gave on 
August 1, 1998. That is, ``The strategic status of the Islamic 
Republic of Iran in the world and in the region, in the Middle 
East in particular, demands that we have a strong military 
capability.'' It goes on to say that ``defending oneself and 
deterring others from committing aggression is the most 
important right of every country.''
    We really have no indications that his threat perception 
really differs from those of other factions at this point or 
that there has been any significant change for the better in 
any of the key programs.
    Mr. Walpole. And with the Shahab-3 launch in July 1998 and 
then two in 2000, I think actions speak louder than words on 
the missile program.
    Senator Cochran. So there has not been any change in the 
pace of the Iranian ballistic missile program since his 
election?
    Mr. Walpole. No.
    Senator Cochran. It has not slowed down?
    Mr. Walpole. Let me phrase it this way. Any slow down in 
the program I do not think we would attribute to political but 
rather to technical issues. We are still seeing the program 
proceed.
    Senator Cochran. Has there been any indication of any 
desire on President Khatami's part to stop the missile program 
or any of the weapons programs?
    Mr. Walpole. Not that I have detected.
    Senator Cochran. Mr. Schindler.
    Mr. Schindler. Not that I am aware of either.
    Senator Cochran. What about the parliament in Iran. We have 
heard that there have been some newly elected reformers in the 
parliament. Do they have any authority over Iran's ballistic 
missile program, and have they exercised any effort, to your 
knowledge, to make any changes in those programs?
    Mr. Walpole. I am not aware of any efforts exercised to 
change the programs. And as I said before, we are seeing the 
programs proceed.
    Senator Cochran. From your statement, Mr. Walpole, there 
appears to be a debate within the Intelligence Community about 
when Iran will be capable of testing an ICBM, there are 
differences of opinion at least, if not a debate. How difficult 
is it for analysts to predict accurately how rapidly a country 
can acquire long-range missile capability?
    Mr. Walpole. Predicting how long it would take them from 
the could perspective, the technical capability perspective, is 
a lot easier than what is likely to happen. What we did last 
year was brought a bunch of U.S. weapons experts, designers and 
so on, together to help us sort out timelines on how quickly a 
country could so that we could have some benchmarks to run 
through. That was fairly easy once we got that input to look at 
the data that we had on Iran and then decide how quickly they 
could do certain things.
    When we started to overlay the likely judgments--that is, 
political factors, do we really think they would push this 
program, would they do an IRBM program first, which we all 
judged they would anyway, an intermediate-range program first--
then you start to get a whole lot more difference of view, 
because it is not just physics, it is not just science, now you 
are factoring a lot of other issues together. But we even had 
some difference of view surface this year on the could in terms 
of how quickly they could do some of these better longer-range 
systems.
    In intelligence work, you get the data and you try to put 
it together to come up with the answer. But we are not getting 
revelation intelligence here. There are uncertainties. And 
where there are uncertainties, it is open to disagreement. I 
view disagreement as healthy. It shows that we are actually 
thinking through the issues.
    Senator Cochran. Can you make any judgment about the way 
foreign assistance appears to have moved the Shahab-3 program 
along faster than the Intelligence Community expected. In other 
words, do you think it would be prudent for policymakers, those 
deciding what steps to take to protect against possible 
threats, to plan on Iran having an ICBM capability sooner 
rather than later?
    Mr. Walpole. Foreign assistance, particularly Russian 
assistance, indeed accelerated the Shahab-3 program for Iran. 
We have taken that acceleration, if you will, into account in 
our judgments for how quickly they could and are likely to be 
able to develop an ICBM. So we have already done that in our 
assessments.
    Senator Cochran. According to your testimony, Iran receives 
foreign assistance from a number of sources for its ballistic 
missile program. How significant is foreign assistance to 
Iran's programs?
    Mr. Walpole. I would say that foreign assistance is indeed 
significant. We had complete CSS-8s sold from China, we had the 
Shahab-3 sold from North Korea, we had Russian assistance in 
developing the Shahab-3 and in developing other capabilities. 
So the foreign assistance has been critical.
    If we were to hypothesize that foreign assistance would 
cease right now completely, I still think we would have 
concerns with Iran's missile program. I do not think the 
program would dry up. It would take them longer to put 
together, but they would still be able to get missiles.
    Senator Cochran. So foreign assistance would accelerate 
Iran's efforts to build long-range ballistic missiles, in your 
opinion. Is that correct?
    Mr. Walpole. Phrase it foreign assistance will continue to 
accelerate it.
    Senator Cochran. It will continue to accelerate the 
program.
    Mr. Walpole. Yes. We factored that in. If you ended foreign 
assistance today, you would see some of our timelines shifting 
back a little but you would not see them move forward because 
of foreign assistance.
    Senator Cochran. Could the assistance help Iran build more 
technologically advanced missiles than they might otherwise be 
able to do?
    Mr. Walpole. Yes. In fact, that is why in my statement you 
see me talk about missiles patterned after the Taepo Dong 
system and then missiles drawing upon Russian assistance. And 
the missiles drawing upon Russian assistance are going to be 
better.
    Senator Cochran. Could this foreign assistance result in 
Iran becoming self-sufficient in the design and development or 
eventually reduce Iran's need for foreign assistance?
    Mr. Walpole. Yes.
    Senator Cochran. What is the effect of Iran's relationship 
with North Korea on Iran's interest in developing an 
intercontinental ballistic missile?
    Mr. Walpole. On their interest?
    Senator Cochran. Yes, on Iran's interest and their work in 
developing an intercontinental ballistic missile.
    Mr. Walpole. I think it has been an influence in their 
work. I think their interest in developing a ballistic missile 
capability is a regional interest, first and foremost. And so I 
am not sure North Korea really plays heavily in that, other 
than supplying technology that would help them fulfill that 
interest.
    Senator Cochran. Do you have any evidence that North Korea 
would be willing to sell the Taepo Dong-2 or the 3-stage Taepo 
Dong-1 to Iran?
    Mr. Walpole. I am not sure that is something we would want 
to go into in open session. I do not mean to imply that we have 
evidence, it is just that evidence of impending transfers is 
something that I would rather not go into here. I made the 
statement in my opening remarks that North Korea has exhibited 
a willingness to share missile technology abroad and might even 
try to do that under the guise of space launch vehicles. Let's 
just let that be the answer, unless you feel there is more we 
can say?
    Mr. Schindler. No.
    Senator Cochran. Should the United States expect to see any 
real technological lag in missile capabilities between the two 
countries, Iran and North Korea?
    Mr. Walpole. Well, right now, North Korea, although it was 
a failed attempt, has tried to put a satellite into orbit, and 
Iran is not there. So you have somewhat of a lag. But I would 
not read a whole lot into that because I think Iran is getting 
some assistance from Russia that in some ways would make them 
better able to develop some systems.
    Senator Cochran. The unclassified summary of the 1999 
National Intelligence Estimate states that a three-stage Taepo 
Dong-2 launched from North Korea could deliver a several 
hundred kilogram payload anywhere in the United States. What 
kind of weapons of mass destruction payload could reach the 
United States on a three-stage Taepo Dong-2 launched from Iran, 
and how much of the United States could Iran reach?
    Mr. Walpole. I have to think of the ranges. North Korea, of 
course, is closer to the United States, so the range is not as 
far. Iran with a three-stage Taepo Dong-2 would be able to 
deliver a several hundred kilogram payload to parts of the 
United States. I am not sure it would reach all of the United 
States. I do not have the charts that tell me that. But because 
of the range differences there, I am not sure that it would. 
What we were postulating in that estimate was a third stage 
that would not give it any accuracy, in fact it would be a 
highly inaccurate system.
    Senator Cochran. You indicated that Pakistan seems to have 
purchased a missile from North Korea, the No Dong, and Iran has 
used that same missile from North Korea, improved it with 
Russian assistance, and given it a new name. Iran appears to 
have used Russian and Chinese assistance to modify the missile. 
Is that what you said, or did you say they just changed the 
name?
    Mr. Walpole. No. Pakistan basically bought the No Dong and 
changed the name. Iran has wanted to modify the missile.
    Senator Cochran. OK. And have they used Russian and Chinese 
assistance to modify the missile?
    Mr. Walpole. I said Russian assistance.
    Mr. Schindler. I think we would want to discuss that in 
closed session. We have delivered some briefings recently in 
classified sessions where we have discussed that issue in 
detail.
    Senator Cochran. What is the reason for the difference 
between the Iranian and Pakistani approaches?
    Mr. Walpole. I could only speculate, but it appears that 
Iran wants to develop a basis to be more self-sufficient and 
understand the systems themselves, and Pakistan is more 
interested in having the systems.
    Senator Cochran. Do you expect that Iran would purchase a 
complete ballistic missile system from North Korea if they 
wanted to field a system quickly? Would they use them as a 
resource, if they wanted to field a system quickly, just 
purchase the total system from North Korea? Is that unlikely?
    Mr. Walpole. If they felt they needed one more quickly than 
they could develop one themselves, then they could try to buy 
one, absolutely.
    Senator Cochran. We have also heard a lot about Russia's 
assistance to Iran's programs, not only ballistic missiles, but 
weapons of mass destruction programs. The Unclassified Report 
to Congress on Proliferation states that Russian assistance to 
Iran accelerated the development of the Shahab-3 medium-range 
ballistic missile. How did this assistance accelerate the 
program?
    Mr. Walpole. Now, again, looking at--of course, that is 
your report, I will let you comment more on it--but just 
looking at the two scenarios that we just discussed briefly, 
one is the complete purchase. Obviously, they can buy the No 
Dong, label it, and fly it, and then there is no acceleration 
there. The acceleration we are talking about is accelerating 
Iran's program to get a 1,300 kilometer range missile from what 
they would have done had they tried it completely on their own. 
So it is not an acceleration compared to a complete sale.
    Senator Cochran. Would you expect continued Russian 
assistance to help accelerate Iran's longer-range ballistic 
missile programs?
    Mr. Walpole. I would.
    Mr. Schindler. I would, too. I would just add that in terms 
of the Russian assistance that we have seen in recent years, it 
has been pretty much across the board in terms of providing 
training for personnel, assisting them in testing components, 
but also provision of some components.
    Senator Cochran. In addition to its apparent desire to 
develop ICBMs, Iran claims it is developing a space launch 
vehicle. The unclassified summary last year states that ``Iran 
will probably test a space launch vehicle with ICBM 
capabilities within the next few years.'' Would an Iranian 
space launch vehicle provide Iran with an initial ICBM threat 
availability based on the criteria you used in the National 
Intelligence Estimate?
    Mr. Walpole. A space launch vehicle and a missile are 
essentially the same. The difference is one is intended to put 
a payload into orbit, the other is intended to put a payload 
into the ground. So what you need is a reentry vehicle, a 
vehicle capable of reentering the atmosphere and not burning 
up. So that if Iran develops a space launch vehicle, it would 
be capable of delivering payloads, if they developed a payload, 
to points on the Earth.
    Now a Taepo Dong-1 is so range-payload limited that if Iran 
had a Taepo Dong-1 space launch vehicle, it would be able to 
deliver very, very small payloads to the United States as an 
ICBM. That is why I had said in my opening remarks that we 
judged they were unlikely to develop that as an ICBM, it just 
is too limited. But the capability to deliver a payload with a 
space launch vehicle is pretty well inherent.
    Senator Cochran. This I think should be directed to you, 
Mr. Walpole, but Mr. Schindler can respond as well. We took a 
trip in April to Moscow and we had a meeting with the First 
Deputy Minister of Atomic Energy Ivanov and we asked him about 
the assistance to Iran's nuclear weapons program. He said that 
there was no Russian assistance to that program. Do you agree 
with that? What is your reaction to his comments?
    Mr. Walpole. My reaction is I am not surprised. And I will 
let Mr. Schindler add to that.
    Mr. Schindler. No, the position that many Russian officials 
take is that Russian assistance is solely dedicated to civilian 
nuclear efforts in Iran. That said, we are concerned by some of 
the dealings that some Russian entities have with Iran and the 
U.S. Government has been attempting to sensitize Russian 
officials to a number of these cases, most recently, one that 
was reported in the press just this week with the Yefremov 
Institute.
    Senator Cochran. I read about that. That is near St. 
Petersburg, that institute, and there was a transaction being 
planned.
    Mr. Schindler. There was some evidence that the Iranians 
were attempting to acquire a laser isotope facility that could 
be used----
    Senator Cochran. And the whole point was that would cost a 
lot more than you would spend if you were just developing a 
civilian nuclear power program.
    Mr. Schindler. It would be much easier----
    Senator Cochran. You could get the technology a lot more 
efficiently in other ways, other sources, other procedures, 
right?
    Mr. Schindler. You would buy the low-enriched uranium on 
the market.
    Senator Cochran. What is your assessment, if you have one, 
of when Iran can have a nuclear weapon?
    Mr. Schindler. Mr. Chairman, we are very concerned about 
the fast pace of the Iranian nuclear program. We would like to 
avoid giving estimates in public as to when Iran might have a 
nuclear weapon. It depends on a number of variables and these 
are all variables we would be very pleased to elaborate on in a 
classified setting.
    Senator Cochran. On the question of proliferation, where 
countries are supplying technology and assistance to Iran, what 
effect does this have on the Intelligence Community and its 
ability to provide advance warning of Iran's long-range 
ballistic missile program or WMD programs?
    Mr. Walpole. If it is a complete sale, which I have 
indicated before was unlikely, but if a country were to sell 
Iran a complete ICBM, a mobile ICBM, we would not be able to 
give a lot of warning of that.
    Senator Cochran. You would not?
    Mr. Walpole. We would not. If we detected the negotiations 
for the sale or some indication that that was going on, then 
that would be your warning window. But if the sale were such 
that what you really detected was the delivery or you detected 
them setting it up, that is not a lot of warning. So a complete 
sale we have said we would not be able to give a lot of warning 
of. If a country is developing an ICBM, if they are doing a 
testing program, even with assistance, even if they buy 
somebody else's components and try to reverse engineer them and 
so on, we can walk through that and give some warning.
    If we look at the record of warning, the Intelligence 
Community first warned about a North Korean ICBM in 1994. They 
did not test the Taepo Dong-1, which failed, until 1998. Now we 
were surprised that they put a third stage on the Taepo Dong-1, 
so I do not want to try to take credit for warning about what 
they would test, because if we were held to the standard that 
we would have to warn exactly what configuration was going to 
be tested 5 or 10 years from now, I would get it wrong every 
time. If you ask me to warn that they are going to work on an 
ICBM, I am probably going to be a little better at that.
    Now if we look at Iran, your opening statement said 
something that kind of surprised me. You said that in 1995 we 
judged that they had neither the motivation nor the capability 
to develop an ICBM. I have to go back and relook at 95-19, the 
famous NIE, but I think what it really was saying was that they 
would not have it by 2010 is what that judgment was saying. We 
have been following Iran's missile programs for many years. In 
the mid-1990's we began to get concerned about longer-range 
programs for Iran. Even when 95-19 was written we were looking 
at longer-range programs. We did not think they would get it at 
the time until after 2010.
    So we have been warning about Iran looking at ICBMs for 
many years, too. And they still have not tested one. So 
warnings are there but it is getting harder to warn what the 
systems are going to look like because foreign assistance can 
help somebody change what a system will look like. We do not 
know to this day, for example, if North Korea got foreign 
assistance with the third stage. We know they have the 
capability to put one together themselves, it was a very small 
third stage, but we do not know the answer to that question.
    So there are a lot of unknowns that make this job hard. I 
guess what I am saying is we do not want to say that we don't 
have the ability to warn, we can still provide a lot of 
warnings, but they are not going to be the refined warnings 
that some would be looking for.
    Senator Cochran. In connection with the chemical warfare 
and chemical weapons production capacity, in Mr. Schindler's 
testimony, you indicate that Iran has a large and growing 
production capacity and already has produced a number of CW 
agents. Didn't Iran sign the Chemical Weapons Convention? And 
if so, is this not a direct contravention of its Chemical 
Weapons Convention obligation?
    Mr. Schindler. Mr. Chairman, the Intelligence Community 
itself does not make compliance judgments. But nonetheless, 
what I have said in my statement is that we assess that they 
have a stockpile and a significant production capability which 
would appear to be inconsistent with the CWC.
    Senator Cochran. Can you speculate as to why Iran would 
sign the Convention and then be in obvious violation, or if not 
in obvious violation--is it an obvious violation?
    Mr. Schindler. Well, Iran may conclude that given the 
nature of modern technologies, that it can bury its CW 
capability in its industrial infrastructure and it will not be 
detected.
    Senator Cochran. Can Iran, if they wanted to, circumvent 
the Chemical Weapons Convention by acquiring technologies and 
materials that are dual use in nature?
    Mr. Schindler. It could.
    Senator Cochran. What are the implications of this pattern 
of activity for its Non-Proliferation Treaty obligations?
    Mr. Schindler. For its NPT?
    Senator Cochran. Right. Nuclear Non-Proliferation.
    Mr. Schindler. What are the implications?
    Senator Cochran. If the pattern of activity, is that 
transferable to other obligations and other treaties?
    Mr. Walpole. Well, we keep a close eye on all of Iran's 
activities and all of Iran's commitments relative to that. 
Because we see them doing things that are not consistent with 
one agreement, of course we are going to keep a close eye on 
what they are doing in other areas. Is that what you mean?
    Senator Cochran. Right. According to the Unclassified 
Report to Congress on Proliferation, Iran has started supplying 
other nations with missile technology. In fact, in testimony to 
the Senate Armed Services Committee, the Director of the CIA 
George Tenet said ``Iran's existence as a secondary supplier of 
this technology is the trend that worries me the most.'' Can 
you give us any information as to which nation or nations Iran 
is now supplying technology to?
    Mr. Schindler. We mentioned--I do not think we can do that 
in open session.
    Senator Cochran. OK. Does the emerging trend of missile 
commerce between states like North Korea and Iran concern you 
as much as it does Director George Tenet?
    Mr. Schindler. Yes.
    Mr. Walpole. Yes. That one is easy. Give us more like that.
    Senator Cochran. If the U.S. has hardly affected missile 
proliferation by countries like Russia and China, how much do 
you expect we will be able to affect North Korean or Iranian 
missile exports?
    Mr. Walpole. I guess I have a little optimism in me. I like 
to always hold out the hope that we are going to be able to 
affect these countries. Last year's missile estimate said that 
we expected North Korea was likely to test the Taepo Dong-2 in 
1999, and they did not do it because of some political deals 
that we had worked out. So I guess I like to hold hope that 
maybe we will be able to work things out with North Korea to 
where they would not test the Taepo Dong-2 and they would not 
share the technologies with others, and maybe down the road 
even do the same with Iran.
    Now while I hold out that hope, you can see that my 
projections are not driven away from where they are because of 
that hope. So it is kind of hard to answer that. I would like 
to see nonproliferation efforts succeed in stopping the 
programs, but we have to make projections where we see them 
falling. Our projections are that they are not going to stop 
the programs at this point.
    Senator Cochran. Mr. Schindler, anything to add on that 
subject from you?
    Mr. Schindler. I would just add that I think we would 
differentiate between Iran and North Korea in terms of the 
potential threat to U.S. interests in terms of them 
transferring missiles to other countries at this point in time. 
The North Koreans are in an active marketing effort and their 
products are more tested, so they are much more active there.
    Senator Cochran. Thank you very much. You have been a big 
help to our understanding of the situation, the nature of the 
threat, the development programs that are underway in Iran, the 
proliferation activity, transfers to and from the country, to 
the extent that these matters could be discussed in an open 
session. We do have to make decisions on levels of funding of 
programs that are designed to protect against these threats and 
to try to help prevent proliferation by the use of the powers 
that our government can lawfully bring to bear on those issues. 
So you have been a big help to us and it is a very important 
undertaking for us to all understand what the facts are and 
what is going on.
    Mr. Schindler. Thank you.
    Mr. Walpole. Thank you. Senator, if I could just add one 
more point to the last question and answer on the 
nonproliferation front. I keep reminding myself of this as 
well. The Condor-2, I do not know if you remember that one, 
that was a two-stage system being developed jointly by Iraq, 
Egypt, and Argentina. That we log in as a nonproliferation 
success. We actually stopped that program. And I am glad we 
did, I would not want to see Condor-2s all over the world 
today. That is probably part of what is behind my optimism. We 
have seen some successes in nonproliferation. We need to 
continue to pursue those efforts to try to get them to work. 
But at the same time, we have got to make our projections based 
on where we think the trends are going.
    Senator Cochran. Thank you very much. We appreciate it. You 
may stand down.
    We will have our second panel come forward. We appreciate 
very much the cooperation and the presence of Dr. Stephen 
Cambone, Director of Research at the Institute for National 
Strategic Studies of the National Defense University here in 
Washington; and Michael Eisenstadt, who is a Senior Fellow at 
the Washington Institute for Near East Policy. Thank you both 
for being here. We appreciate your presence.
    Dr. Cambone, you may proceed.

    TESTIMONY OF STEPHEN A. CAMBONE, DIRECTOR OF RESEARCH, 
   INSTITUTE FOR NATIONAL STRATEGIC STUDIES OF THE NATIONAL 
                       DEFENSE UNIVERSITY

    Mr. Cambone. Thank you, Senator. It is a pleasure for me to 
be here and a honor to appear before the Subcommittee. I do 
have a prepared statement that, with your permission, I would 
like to submit for the record and to just simply draw a few 
summary statements from it in the opening, and then proceed to 
questions if you would like.
    Let me preface my remarks by saying that what I have to say 
are my views alone. I am an employee of the National Defense 
University, which is a government agency, and my views are my 
own and not theirs and do not represent anyone else at the 
University.
    My remarks here today are built around what I anticipated 
my friend, Bob Walpole, would have to say as a result of having 
followed the way in which the NIEs have developed, and 
particularly the latest set of comments in which the NIEs and 
the reports from the National Intelligence Council have begun 
to concentrate on what might be likely to happen, the 
motivations and the difficulties of assessing those 
motivations, particularly with respect to the Iranian program. 
And so I attempted to build my remarks around that issue, with 
the view that if we were to take Bob Walpole at his word that 
warning has, indeed, been given by the Intelligence Community 
on the question of Iran, its ballistic missile programs and its 
nuclear weapons programs, then it seems to me it is time to 
heed that warning and to react accordingly.
    And so, if I may, I would like to briefly outline why I 
think we need to take seriously the pace and the direction of 
the Iranian program, and then to outline a number of points 
where I think we need to begin to prepare to meet the 
consequences of Iran's programs.
    In my judgment, Iran now has the capability with readily 
available foreign assistance to develop and to deploy, with 
little testing, ballistic missiles with sufficient range to 
reach the United States. In assessing Iran's capability, we 
cannot discount the possibility that if it were to accept from 
foreign sources a fully developed system, that is a three-stage 
Taepo Dong-2 from North Korea, it could go ahead and pose that 
threat to us even without testing.
    And the reason I make this point, and I know it to be a 
controversial one, is, again recalling what Bob Walpole just 
told us, the North Koreans were preparing to test the Taepo 
Dong-2 in 1999, according to the sources that we have in the 
open, and so therefore this is a system that has been 
progressing over time. And we need to remind ourselves again 
that the Taepo Dong-1 was tested with three stages without ever 
having been tested prior to that.
    So it is a case where I think we have to begin to lend some 
credibility to the proposition that transfers can occur and 
deployments made without the kind of testing that we would 
expect to see.
    Second, there remains some uncertainty whether Iran now 
possesses or will soon possess nuclear weapons with which to 
arm its ballistic missiles. In my judgment, U.S. policy toward 
Iran should take as its point of departure the findings of the 
Rumsfeld Commission in 1998. That was that by relying on 
foreign sources of fissile material, Iran could acquire nuclear 
weapons in 1 to 3 years of a decision that they are essential 
to its security. And, moreover, policymakers should assume that 
they, policymakers, are unlikely to know when or whether such a 
decision has been taken.
    And so I do believe that we need to start reviewing 
closely, and revise as appropriate our policies in a way that 
reflect this new reality. And I believe the reality can be 
summarized in this way. That in a future crisis or conflict 
involving Iran, the United States will need to honor the 
threat--an expression that one used to hear often and which I 
think is useful in this case--need to honor the threat Iran 
could pose to the interests of the United States.
    Now there are those who will argue that I am presenting a 
worst case scenario. They will make many arguments why Iran 
would not pursue a long-range ballistic missile program, why it 
would not pursue an ICBM program, and so forth. But it seems to 
me that the motivations and intentions of other countries are 
always difficult to assess, and this is especially true in the 
case of Iran, a nation with which, frankly, the United States 
has had little contact over the last 20 years and that is 
governed by a regime that is very different than our own.
    That said, U.S. policymakers should suppose nonetheless 
that the Iranians are no less capable of understanding the 
value of nuclear weapons and ballistic missiles than are those 
who govern North Korea, who govern Pakistan, who govern India, 
and even Iraq. Each of those nations has used its weapons 
programs to alter its strategic circumstances in significant 
ways, and I have no doubt that the Iranian leadership 
understands that it can make use of its ballistic missiles and 
nuclear weapon programs to change its strategic circumstances.
    In my prepared remarks I have a description of what I think 
the changes are that Iran seeks. I will skip over any detail 
but mark three points.
    First, Iran clearly is looking to deter outside 
intervention in its domestic and its national security affairs. 
They intend to do that for nations nearby, like Iraq, nations 
at intermediate range, like Israel, and nations at longer 
range, like the United States.
    Second, clearly Iran wishes to establish itself as a 
leading power in the Middle East/Southwest Asia region and they 
are having some effect in establishing themselves. I think 
their ballistic missile and weapons programs have some measure 
of credit for the effect that they have had. And that it has 
become apparent, that is, the effect they have in establishing 
themselves, that I think prompted Secretary Cohen's comment in 
April of this past year toward the Gulf States when he was 
visiting that they, the Gulf States, should take care in 
trusting too much in the proposition that ``Iran wants a 
peaceful and stable relationship with them.''
    Third, I think Iran is definitely interested in reducing to 
a vanishing point the influence the United States has on the 
affairs of the region. Iran's rising strength and confidence 
has begun to persuade other states in the region that they need 
to begin assessing their own relationship with the United 
States as well. I think we are in for a fairly rocky period of 
time in our relations with countries in that part of the world.
    My prepared statement has a bit of history on the Iranian 
programs. I will not go through them with you here, except to 
come back to remind again of the quotation from the Rumsfeld 
Commission's report in 1998 on their nuclear weapons program. 
And here let me quote it in full:
    ``The Commission found that Iran has a nuclear energy and 
weapons program which aims to design, develop, and as soon as 
possible produce nuclear weapons. The Commission judges that 
the only issue as to whether or not Iran may soon have or 
already has a nuclear weapon is the amount of fissile material 
available to it. If Iran were able to accumulate enough fissile 
material from foreign sources, it might be able to develop a 
nuclear weapon in only 1 to 3 years.''
    Now, of course, this turns on the question of availability 
of fissile material. But we know there is an awful lot of 
fissile material available in this world. We ourselves, the 
United States, have taken highly enriched uranium out of a 
former Soviet state. Britain joined with us in another effort 
to take it out of a second state. And we know that, despite the 
programs that have been undertaken in the context of the Nunn-
Lugar effort to take care of ``loose nukes,'' a recent 
Washington Post article underscored how poorly that program is 
translating in Russia and how uncertain are the people who work 
in those programs in Russia that their future is in any way 
secure. And it only gives one cause to worry that transfers of 
technology, of information, of people, and maybe perhaps even 
of material was taking place whether acknowledged or 
unacknowledged by the Russian government.
    We know that kind of transfer is not unknown. There are 
persistent reports, for example, that China transferred 
material to Pakistan. Nor is diversion of material from 
civilian programs to clandestine programs unknown, as we find 
in Iraq and in North Korea. And then we have the case of South 
Africa, where we all, I think, found it interesting that it had 
a number of nuclear weapons in their arsenal.
    Let me turn then to ``honoring the threat'' and conclude 
with six points where I think we ought to begin paying some 
attention.
    First, it seems to me we have to think about the posture of 
U.S. forces. Constant attention is needed to maintain our 
capability to undermine the utility to Iran of nuclear weapons 
and ballistic missiles. This includes, but is not defined by, 
deployment of ballistic missile defenses in the region and to 
defend the American homeland as well. It is also the case that 
forces deployed by the United States to the region must assure 
Iran's neighbors, those that depend on us, that our forces can 
perform their assigned missions, including, if necessary, 
suppression of ballistic missile attacks.
    Second, we have to take a new approach to stemming the 
supply of expertise, materials, and technology to Iran. Their 
programs are already well advanced, as Bob Walpole told us. 
Even if the foreign assistance were to end tomorrow, those 
programs would still be a matter of concern. Nonetheless, the 
Iranians continue to take in foreign assistance and we have to 
find ways different than those we have practiced thus far to 
stem that proliferation.
    Third, we need to begin worrying about the consequences for 
the remainder of the region of Iran's programs. We know that 
Iraq continues with its own programs. We know that Pakistan has 
one. We know that Saudi Arabia has ballistic missiles that it 
may soon need to replace. We know that the Israelis are keeping 
a very close eye on what is taking place in Iran. We know that 
Turkey is concerned about what is taking place in Iran. And so, 
as the Iranian program begins to take shape and become more 
apparent, we are going to see a reaction in the region and we 
need to be prepared here in the United States to deal with that 
consequence.
    Fourth, we have to talk with our European friends and 
allies. They are the object of a charm offensive from Iran for 
Iran to gain legitimacy in the international arena. We clearly 
need to make clear to our European friends exactly how serious 
we take the Iranian threat and elicit their cooperation and 
assistance in dealing with it.
    Fifth, it is time for us to do a net assessment of our 
interests in the Middle East/Persian Gulf/Southwest Asia 
region. Iran's emergence in diplomatic and economic terms 
coupled with its advancing military capability, on the 
conventional front plus its ballistic missile and nuclear 
weapons program, turns it into a true strategic power in the 
region and one which we need to take into account in our 
policies in the region. I do not think we do that sufficiently 
today.
    And last, we do have to look at U.S.-Iranian relations. 
This is probably the most difficult step for American political 
leaders to take. The memories of the 1979 hostage crisis, two 
decades of vilification, the toll taken by state-sponsored 
terrorism, and the determination with which Iran seeks to 
displace the United States in the region make it difficult to 
come to this issue without grave reservation. Nonetheless, 
there is change going on inside of Iran and it ought to be in 
our interest to see that change continue. But we cannot be 
misled by what is taking place because what we are likely to 
see is an Iran which, while more popular in its government, 
will remain Islamic in its foundations. And so while it appears 
to be, and may in fact be in the eyes of its own people, a 
democratic state, it is one which is very different than our 
own with ambitions very different from ours. And so we need to 
approach it in a way that we are very careful not to transform 
ourselves into a demander of change, being willing to offer 
blandishments and rewards to Iran for their behavior, but 
rather to approach them from a position where each side is 
clear-eyed in its interest and we, for our part, are willing to 
sustain our position if in fact we find there is no basis for 
friendly agreement.
    So let me conclude then. In the last 5 years, we have 
clearly witnessed the development of nuclear weapons programs 
and ballistic missile programs in Iran that provide it with the 
potential to threaten American interests. Iran's programs have 
been, and remain, dependent on foreign assistance. But that 
fact does not alter the conclusion that Iran could deploy, in a 
relatively short time, weapons systems that could threaten the 
American homeland.
    Over the same period of time, they have been working 
assiduously to alter their position in the region and in the 
international system. They are looking to establish themselves 
as a legitimate state in the international system. This is not 
something we should overlook because there is every prospect 
now that we will see in the near future what is considered to 
be a legitimate state in the international system newly armed 
with nuclear weapons and ballistic missiles. And whether those 
nuclear weapons are acknowledged by Iran, whether they are 
admitted by us, or they are kept, as it were, in the basement, 
the fact of their programs will change, and have changed, the 
Iranian strategic position. And it is one which it is time we 
for our part address directly. Thank you.
    [The prepared statement of Mr. Cambone follows:]
            PREPARED STATEMENT OF DR. STEPHEN A. CAMBONE \1\
I. Introduction
---------------------------------------------------------------------------
    \1\ Dr. Cambone served as Staff Director for the Commission to 
Assess the Ballistic Missile Threat to the United States (Rumsfeld 
Commission). He has served on the staff of the Director, Los Alamos 
National Laboratory, as Director of Strategic Defense Policy in the 
Pentagon and as a Senior Fellow at the Center for Strategic and 
International Studies. He is currently on detail from the National 
Defense University to serve as Staff Director for the Commission to 
Assess U.S. National Security Space Management and Organization.

      The views expressed by the witness are his own and do not 
necessarily reflect those of the National Defense University, the 
Department of Defense or any other U.S. government department or 
agency.

    Mr. Chairman, it is an honor for me to appear before the Committee 
to discuss the issue of Iran and weapons proliferation.
    Iran has benefited from proliferation activity by North Korea, 
China and Russia. It has made use of foreign experts, testing, 
technology and weapons systems to transform its military posture. The 
Congress has been especially concerned with proliferation activity that 
has enabled Iran to develop ballistic missiles and, possibly, nuclear 
weapons.
    In my judgment, Iran now has the capability with readily available 
foreign assistance to develop and to deploy, with little testing, 
ballistic missiles with sufficient range to reach the United States. In 
assessing Iran's capability we cannot discount the possibility that if 
it were to accept from foreign sources a fully developed system, e.g., 
a three stage Taepo-Dong 2 from North Korea, rather than components and 
technical assistance, it could deploy it without testing.
    There remains uncertainty whether Iran now possesses or will soon 
possess nuclear weapons with which to arm its ballistic missiles. In my 
judgment U.S. policy toward Iran should take as its point of departure 
the findings of the Rumsfeld Commission that, by relying on foreign 
sources of fissile material, Iran could acquire nuclear weapons in one 
to three years of a decision that they are essential to its security. 
Moreover, policy makers should assume that they are unlikely to know 
when or whether such a decision has been taken.
    Consequently, I believe U.S. policy toward Iran needs to be 
reviewed closely and revised as appropriate to reflect a new reality. 
That reality is that in a future crisis or conflict involving Iran the 
U.S. will need to ``honor the threat'' Iran could pose to the interests 
of the United States. Put another way, the U.S. needs to begin now to 
reassess its policies, strategies and military capabilities as they 
apply to the Middle East and Southwest Asia. It needs to do so in light 
of the probability that Iran is likely to possess the means to hold the 
U.S., its deployed forces and our allies at risk by means of ballistic 
missiles armed with nuclear weapons.
    There are those who will argue that I am presenting a worst case 
scenario. Iran, they will argue, has little to gain and much to lose by 
developing a nuclear weapons capability and even more to lose by 
coupling it to an ICBM-range missile with which to threaten the United 
States. A nuclear weapons program, it is argued, would risk Iran's 
standing in the international community, not least because it would 
violate Iran's NPT pledge to remain a non-nuclear weapons state. An 
ICBM program, it is argued, would gain nothing for Iran because should 
it attack the United States--or perhaps only threaten to attack--it 
would be the subject of instant and catastrophic retaliation.
    The motivations and intentions of other countries are always 
difficult to assess. This is especially true in the case of Iran, a 
nation with which the U.S. has had little contact in 20 years and that 
is governed by a regime very different from our own. That said, U.S. 
policy makers should suppose that Iranians are no less capable of 
understanding the value of nuclear weapons and ballistic missiles than 
are those who govern North Korea, India, Pakistan and even Iraq. Each 
of those nations has used its weapons programs to alter its strategic 
circumstances in significant ways.
    Like North Korea, India, Pakistan and Iraq, Iran seeks to change 
its strategic circumstances.
    First, it seeks to secure itself from outside intervention in its 
domestic and national security affairs, what it refers to as 
establishing a deterrent capability. This would require an ability to 
project a deterrent in the fashion of France during the Cold War--touts 
azimuth. Iran has already taken steps to build a deterrent capability 
against nearby Iraq, which is its most ambitious competitor for 
leadership in the region and a long-term adversary. The deterrent is 
intended to affect countries further away that Iran perceives as a 
threat, for example, Israel. Israel can pose a countervailing deterrent 
to Iran both by frustrating Iranian political objectives in the region 
and by its ability to directly threaten Iranian territory. And Iran is 
clear in its desire to have a deterrent to American power, which can 
affect Iran's regional interests from any distance--near to far--and by 
any means--political, economic or military. Second, Iran seeks to 
establish itself as a leading power in the region. This requires a mix 
of political and economic as well as military strength. Efforts to 
establish this position are evident in Iranian diplomacy toward the 
Gulf States. The apparent effect of those efforts prompted Secretary 
Cohen to warn in April of this year that the Gulf States should take 
care in trusting too much in the proposition that ``Iran wants a 
peaceful and stable relations [sic] with them.'' Efforts to improve 
Iran's economic circumstances can be seen in its program to develop new 
oil and gas fields within Iran, its involvement in affairs related to 
Caspian Sea oil and pipelines (which has strategic implications as 
well) and its own proposals to build a pipeline through Pakistan to 
deliver oil to India. Apart from its nuclear and missile programs, Iran 
has been rebuilding its military. Though far from complete, the effort 
is far enough along that Iran could send a message to neighboring 
states by mobilizing two divisions of regular troops (and not 
Revolutionary Guards) to signal its opposition to instability emanating 
from Afghanistan and by proposing naval maneuvers with Gulf States.
    Third, Iran wants to reduce to a vanishing point the influence of 
the U.S. on the affairs of the region. Iran's rising strength and 
confidence, coupled to their internal domestic pressures, has 
contributed to quiet requests to the U.S. from states in the region for 
a reduction in the American military footprint. Iran is conducting a 
diplomatic and political offensive among states of the European Union. 
This has resulted in visits to London, Paris and Berlin for Iran's 
leaders. These American allies understand the game Iran seeks to play, 
and express their solidarity with the U.S. on such issues as non-
proliferation and human rights. But in the end, Iran undoubtedly hopes 
to build a second center of opinion in the West more favorably disposed 
to its interests than the U.S. has been or is likely to be.
    In my judgment, Iran's nuclear weapon and ballistic missile 
programs are essential to achieving these three objectives. As those 
programs develop, they could provide a deterrent to interference in 
Iranian affairs, a firm foundation for asserting a stabilizing 
leadership role in the region and a countervailing power to that of the 
United States.
    In my view, these programs are essential to Iran's broader 
strategic interests. It is dangerous for the U.S. to assess the risks 
and benefits of such programs from the vantage point of those who see 
no value in and hence no reason for Iran to pursue a nuclear weapon and 
ballistic missile program. Once the U.S. grasps the scope of Iranian 
interests and the role of its programs in realizing those interests, 
the more apparent becomes the need to ``honor the threat'' posed by 
Iran to American interests.

II. Iran and Proliferation

    A. Ballistic Missiles

    Iranian interest in ballistic missile acquisition is traceable to 
its war with Iraq in the mid-1980's. Iraq's modified SCUD missiles out-
numbered and out-ranged those of Iran. Iran turned to North Korea to 
supply it with ballistic missiles. North Korea obliged, sending Iran 
SCUD Bs, 77 of which were fired against targets in Iraq during the 
second ``War of the Cities'' in 1988. There was a certain irony in this 
transaction. The missiles provided by North Korea had been reverse-
engineered from SCUDs it had obtained from Egypt in the early 1980's. 
During the Iran-Iraq war, Egypt was a staunch supporter of Iraq. 
Proliferation activity knows no loyalties.
    By the early 1990's Iran had turned again to North Korea to acquire 
ballistic missiles. (Some analysts believe that Iran was involved in 
North Korea's No Dong program from its outset in the late 1980's and 
that it provided substantial funding for its development.) By the mid-
1990's Iran had as many as ten No Dongs--either in component form or as 
completed missiles--which are evolved from SCUDs and are thought to 
provide the building blocks for North Korea's Taepo Dong missiles. Over 
the same period Iran had also begun to establish the infrastructure 
that would permit it to produce ballistic missiles within the country, 
ending its dependence on outside suppliers. By the early to mid-1990's 
Iran had also secured considerable technical support from Russia and 
China for its SCUD-based program, support that continues to this day.
    The result of proliferation activity involving Iran is worth 
underscoring. In roughly a decade--from the time it became involved in 
North Korea's No Dong program--Iran has arrived at the threshold of 
ICBM capability. Recall the judgment of the Rumsfeld Commission in 
1998:

        Iran now has the technical capability and resources to 
        demonstrate an ICBM-range ballistic missile, similar to the 
        [North Korean] TD-2 [itself based on scaled-up SCUD 
        technology], within five years of a decision to proceed--
        whether that decision has already been made or is yet to be 
        made.

    This judgment was acknowledged in the National Intelligence 
Council's (NIC) report in September 1999. Much has been made of the 
fact that analysts who contributed to this report were unable to agree 
on the likely direction and timing of Iran's missile programs, that is, 
of Iran's intentions for its programs. This is hardly surprising and 
misses the point. It is not surprising because the U.S. has no official 
presence--embassy, consulates, trade offices--in the country through 
which it could gain first hand knowledge of affairs in Iran. Tight 
security limits the availability of people and information that might 
shed light on Iranian plans and programs. Through deception and denial 
efforts the government and security services work hard to frustrate 
intelligence collection by technical means. Under such conditions it is 
very difficult to confirm intentions with high confidence.
    Readers of the NIC's report who focus on the disagreements about 
Iranian intentions miss the underlying point of the report--that Iran's 
program is moving along, that all postulated paths lead to a ballistic 
missile capability of ICBM range and do so within a reasonably short 
period of time. With respect to Iran's actual capability, the NIC 
report confirms the Rumsfeld Commission's judgment:

        ``. . . most analysts believe [Iran] could (emphasis added) 
        test a three-stage ICBM patterned after the Taepo Dong-1 SLV or 
        a three-stage Taepo Dong 2-type ICBM, possibly with North 
        Korean assistance, in the next few years.''

    Iran's potential to test a Taepo Dong-like missile in the next few 
years is a product of more than a decade of close North Korean-Iranian 
cooperation on SCUD-based programs. That cooperation was demonstrated 
again in the last year. Press reports suggest that in November 1999 
North Korea transferred 12 No Dong engines to Iran. It is reported that 
those engines were tested in February 2000. Iran successfully flight-
tested the Shahab 3, which is its version of the No Dong, on July 15, 
2000. In fact, in March 2000 the Iranian defense minister suggested the 
Shahab 3 was fully operational as of February. In public testimony, the 
U.S. NIO for Strategic Programs confirmed the No Dong engine transfer. 
He called the engines critical to the Shahab 3 program and ``any 
extensions of the Shahab 3 program,'' by which he meant an Iranian 
version of the Taepo Dong.
    In addition to North Korea, Iran has had assistance from Russia and 
China in its SCUD-based programs. There is little reason to believe 
that Iran could not procure, or that one of its proliferation partners 
would not supply, whatever additional technical support it may still 
require to develop, test and deploy an ICBM-range missile. A three-
stage Taepo Dong-2 is said by the intelligence community to have 
sufficient range to reach most of the U.S. from North Korea. Such a 
missile developed or deployed in Iran would have sufficient range to 
reach the northeastern United States.
    Iran also has the potential to pursue an ICBM-range program by 
building off Russian and Chinese assistance to programs other than its 
SCUD-based program. That is, Iran could choose to develop an ICBM 
different from the North Korean Taepo Dong. The Rumsfeld Commission 
reported that Iran ``is reported to have acquired engines or engine 
designs for the RD-214 engine, which powered the Soviet SS-4 MRBM and 
served as the first stage of the SL-7 space-launch vehicle.'' It also 
reported that China ``has carried out extensive transfers to Iran's 
solid-fueled ballistic missile program'' and that Iran has ``developed 
a solid-fueled rocket infrastructure. . . .'' Other sources report that 
Iran has received the RD-216 engine from Russia. It powered the SS-5 
IRBM and the SL-8, a space-launch vehicle still employed by Russia. The 
step from a space launch vehicle to an ICBM is not very large or 
difficult. The assistance of Russia and China in these areas provides 
Iran with an alternate approach to ICBM-range missiles.
    The Iranians discuss two programs beyond the Shahab 3, referring to 
them as the Shahab 4 and Shahab 5. The characteristics of these 
programs--that is, whether they are Iranian versions of the Taepo Dong 
or single or multiple stage variants on the Soviet-era SS-4 and SS-5 or 
something else--are unknown. It is not impossible that the names cover 
a number of Iranian programs. But whatever names they may have, the 
evidence suggests Iran, like every other ballistic missile power, is 
developing missiles of longer and longer range.

    B. Nuclear Weapons

    There is no doubt that Iran could arm its ballistic missiles with 
chemical or biological warheads. Greater uncertainty exists with 
respect to nuclear weapons. The Rumsfeld Commission found that Iran:

        ``. . . has a nuclear energy and weapons program which aims to 
        design, develop and, as soon as possible, produce nuclear 
        weapons. The Commission judges that the only issue as to 
        whether or not Iran may soon have or already has a nuclear 
        weapon is the amount of fissile material available to it. . . . 
        If Iran were to accumulate enough fissile material from foreign 
        sources, it might be able to develop a nuclear weapon in only 
        one to three years.

    The key to Iranian nuclear weapons capability is the acquisition of 
weapons-grade uranium or plutonium (depending on the designs Iran may 
choose). Recent experience shows that the possibility of procuring 
fissile material from abroad cannot be discounted.
    The U.S. purchased 600 kg of HEU from Khazakstan. Britain and the 
U.S. removed almost 9 pounds of HEU from Georgia. It would be dangerous 
to suppose that only the U.S. and the UK could have success in such 
transactions. This is especially so given that within eight of the 
states of the former Soviet Union there is reported to be some 700 tons 
of fissile or near-fissile material located at over 50 sites. To be 
sure, the U.S. is working hard to bring that material under protection, 
accountability and control. But as highlighted in a recent Washington 
Post article, that effort has been fraught with difficulty and delay, 
and it cannot be expected to make up for notoriously bad record-keeping 
by FSU officials or the disillusionment and poverty of current 
officials.
    Foreign acquisition of material for weapons is not unknown. There 
are persistent reports that China transferred material to Pakistan for 
its first weapon. Nor is diversion of material from civilian programs 
to clandestine programs unknown, as has been the case with Iraq and 
North Korea. Nor are wholly clandestine programs unknown, as the U.S. 
learned with respect to the program in South Africa. Hence, the 
position of the intelligence community as reported in the press in 
January 2000--that it can no longer rule out the possibility that Iran 
has acquired nuclear weapons--is not surprising.
    In my judgment, the combination of what the U.S. knows of Iran's 
programs and activities and past experience should lead policy makers 
and Members of Congress to err on the side of caution in the matter of 
an Iranian nuclear weapons program. That is, the U.S. needs to take 
seriously that the ``absence of evidence is not evidence of absence''--
and to fashion policy on the same basis as urged by the Rumsfeld 
Commission with respect to ballistic missiles. That is, Iran could 
possess nuclear weapons capability within a reasonably short time of a 
decision to acquire it, and that during that time the U.S. might not be 
aware that such a decision had been made.

III. Honoring the Threat

    In a future crisis or conflict involving Iran, I have argued, the 
U.S. will need to ``honor the threat'' posed by an Iran that could 
possess the means to hold the United States, its deployed forces and 
our allies at risk by means of ballistic missiles armed with nuclear 
weapons. To do so, I suggested, requires that the U.S. review its 
policies, plans, strategies and forces as they relate to the Middle 
East and Southwest Asia. I will conclude with a short list of issues 
for examination.
    First, the structure and posture of U.S. forces: Constant attention 
is needed to maintain the capability to undermine the utility to Iran 
of nuclear weapons and missile programs. This includes, but is not 
defined by, deployment of ballistic missile defense in the region and 
to defend the American homeland as well. It is also the case that 
forces deployed by the U.S. to the region must assure Iran's neighbors 
that they can perform their assigned missions--including, if necessary, 
suppression of ballistic missile attacks. It is likely that this 
capability will need to be demonstrated and that regional leaders will 
want to be apprised of U.S. thinking about, but not be implicated in, 
the planning or execution of those missions. Of greater importance to 
those leaders is an assurance that in the event of a crisis or conflict 
the security burden will be shared equitably. The U.S. will need to 
consider as well whether additional attention is needed to reinforce 
the security and raise the deterrent threshold for allies outside of 
Iran's immediate neighborhood that are potentially at risk, 
particularly Turkey and Israel.
    Second, new approaches to stemming the supply of expertise, 
materials and technology to Iran: The U.S. might consider altering its 
approach toward nations and non-state actors supplying Iran's programs. 
Rather than sanction entities within those nations, the U.S. might 
consider taking countervailing action. The suppliers to Iran are 
contributing to the development of a capability that Iran could use to 
threaten important, perhaps one day vital, interests of the U.S.. Those 
suppliers need to be put on notice that the U.S. will treat their 
actions as a direct threat and act accordingly.
    Third, regional proliferation: The Middle East/Southwest Asia 
region is already one in which considerable proliferation activity 
occurs. Should the Iranian programs continue to progress, it is likely 
that other nations will find themselves confronted with the question: 
how shall we respond? The U.S. needs to consider how far it can 
discourage additional countries from deploying--explicitly or ``in the 
basement''--missile and weapons programs--or substantially modernizing 
those they do possess. In those cases where countries decided they will 
proceed, the U.S. will need to consider how it would respond and the 
implications of its response for global arms control regimes.
    Fourth, consultation with our European friends and allies: Britain, 
France, Germany and Italy, among others, have their own interests in 
the Persian Gulf and in repairing their ties with Iran. They need to 
understand the seriousness with which the U.S. takes the potential 
threat posed by Iran and the measures it is prepared to take to 
mitigate that threat. The U.S. should review with them, and seek 
cooperation in, a range of diplomatic, economic and military measures 
it is prepared to take to undermine the utility of its programs to Iran 
and to stem the continuing flow of support to those programs.
    Fifth, a net assessment of U.S. interests in the Middle East/
Persian Gulf/Southwest Asia: The U.S. has a number of distinct, 
sometimes conflicting objectives in the region. These include: the 
peace process, Turkish and Israeli security and defense, stability and 
threat reduction in the Gulf, Caspian oil, Pakistani political 
stability, moderating political and religious extremism and support for 
international terrorism, and Iraqi compliance with UN Security Council 
resolutions. Chinese, Russian and EU initiatives are in play 
simultaneously. All touch to a greater or lesser extent on Iranian 
interests. The U.S. needs to be clear about what its own priorities may 
be, where there are opportunities for agreement with Iran, where 
misunderstandings can be avoided and what the basic points of real 
difference between Iran and the U.S. may be.
    Sixth, a fresh look at the future of U.S.-Iranian relations: This 
is the most difficult step for American political leaders to take. The 
memories of the 1979 hostage crisis, two decades of vilification, the 
toll taken by state-sponsored terrorism and the determination with 
which Iran seeks to displace the U.S. in the region make it difficult 
to come to this issue without grave reservation. Yet, Iran is 
undeniably in the throes of important political and social changes. To 
be sure, elections do not make for a democratic regime of a kind we 
understand in the West. Nor is it likely that a more popular or 
moderate Iranian government will be moved any time soon to abandon its 
nuclear weapons and missile programs. But the people of Iran are having 
an influence on their own government. It is in the United States' 
interest to encourage that trend. Public attitudes in Iran might be 
affected positively if the U.S. were to take the necessary steps to 
undermine the utility to Iran of nuclear weapons and missiles and to 
staunch the flow of foreign support to those programs while offering to 
engage in reciprocal actions to reduce tensions in the region. At the 
same time the U.S. cannot allow itself to be drawn into a relationship 
where, as in the case of North Korea, the U.S. becomes the demander. 
That will only reward Iran for its behavior, encourage its suppliers, 
frustrate U.S. relations with our allies, further destabilize the 
region and result in crisis and conflict with Iran.

IV. Conclusion

    Mr. Chairman, I will conclude this statement with the following 
observation.
    In the last five years we have witnessed the development of a 
nuclear weapons and ballistic missile program in Iran that now provides 
it with the potential to threaten American interests. Iran's program 
has been, and remains, dependent on foreign assistance. But that 
dependence does not alter the fact that it could deploy, in a 
relatively short time, weapons systems that could threaten the American 
homeland.
    Over the same period of time Iran has been working assiduously to 
alter its strategic position in the region. Its nuclear weapons and 
missile programs have been complemented by the selective modernization 
of its conventional forces. It has made a number of diplomatic 
overtures to regional and European powers to establish itself as a 
legitimate state in the international system. And, in the last few 
years Iran has been struggling to revise its domestic affairs in ways 
that, if successfully completed, could bind its large and youthful 
population to a more popular Islamic and nationalist system of 
government and an economy more prosperous than Iran has enjoyed for 
many decades.
    As a result of its ongoing military, diplomatic and domestic 
transformation, Iran has evolved from a ``state of proliferation 
concern.'' It is recognized in the region and increasingly within 
international councils as a legitimate state whose national interests 
must be taken into account by all other states. It is now time for the 
U.S. to address the strategic challenge Iran poses to American 
interests in the region and within the international system.

    Senator Cochran. Thank you very much, Dr. Cambone.
    Mr. Eisenstadt, we will hear from you now. Thank you.

  TESTIMONY OF MICHAEL EISENSTADT, SENIOR FELLOW, WASHINGTON 
                 INSTITUTE FOR NEAR EAST POLICY

    Mr. Eisenstadt. Thank you very much, Mr. Chairman. I would 
like to thank you for inviting me here today to speak about 
this important topic. I will make a few comments based on my 
prepared statement which I would like to submit for the record.
    I thought I would talk today about policy approaches for 
dealing with proliferation in Iran, given that the other 
speakers have tended to focus on particular systems and 
capabilities. I intend to discuss five policy approaches that 
have been used by the United States in the Middle East and 
elsewhere for dealing with proliferation, evaluating their 
utility and efficacy vis-a-vis Iran so that maybe we can draw 
some conclusions as to what works best and what maybe is not 
appropriate in dealing with the issue of Iranian proliferation. 
These five policy approaches are: (1) altering Iran's 
motivations to acquire missiles and WMD; (2) influencing Iran's 
proliferation cost/benefit calculus; (3) imposing costs and 
delays on its programs; (4) strengthening deterrence; and (5) 
mitigating the impact of proliferation by encouraging political 
change in Iran. I will evaluate each of these now in turn.
    In terms of altering motivations, I would first make two 
points. First, Iran's interest in weapons of mass destruction 
predates the Islamic Republic. Under the monarchy, under the 
Shah, Iran had a nuclear weapons program. After the Islamic 
revolution, the Islamic Republic, first in response to Iraqi 
chemical weapon use, pursued chemical and biological weapons, 
and then reactivated the nuclear weapons program. Whereas the 
Shah was motivated mainly by his desire to make Iran a regional 
power, the Islamic Republic has been motivated by three 
factors: (1) the desire for self-reliance, given the fact that 
they have been strategically isolated for the entire time that 
the Islamic Republic has existed; (2) to transform Iran into a 
regional power; and (3) to strengthen Iran's deterrent 
capability.
    Now there are two main policy implications implicit in this 
assessment. First, Iran's pursuit of weapons of mass 
destruction and missiles is not necessarily regime-specific. In 
other words, even if the Islamic Republic were to be replaced 
by another regime, there is a good chance that they might still 
pursue WMD for various reasons. Second, Iran is developing 
weapons of mass destruction not just to deal with perceived 
threats, that is, for deterrence purposes, but for other 
factors as well. This is important because a lot of people tend 
to assume that its motivations are strictly defensive, that if 
we could deal with its defensive concerns, then the problem can 
be dealt with. And usually they put forward the idea of 
creating some kind of regional security systems which will then 
enable Iran to divest itself eventually of its WMD.
    My bottom line is just their security concerns alone are so 
complex, I doubt that there is anything we can do to really 
modify them. But even if we could deal with them, there are 
other factors which will probably continue to motivate Iran in 
the direction of proliferation. That is not to say that we 
should not try to lay the groundwork for a security framework 
in the region, because I think to the degree that would advance 
stability in the region, that is good because you might then 
avoid conflicts that could lead to the use of WMD. But it is 
not a cure for Iranian proliferation.
    Second, with regard to influencing the proliferation cost/
benefit calculus of Iran. A number of people again have, I 
think, speculated incorrectly that somehow the reformers have 
less of a motivation to pursue WMD than the hard-line 
conservatives and that they are influenced by a different 
calculus.
    I think in general I disagree with that. First, from the 
little evidence that we have on the subject, Iran's leadership 
seems relatively united over the desirability of acquiring 
missiles and WMD. I think across the board its leadership sees 
the possession of such weapons as a strategic imperative.
    However, I think it is possible that there might be 
differences within the leadership over the price that Iran 
might have to pay for going down the proliferation road. For 
instance, if they were to violate their NPT commitments and 
develop nuclear weapons or to be caught violating the Chemical 
Weapons Convention, then economic sanctions could conceivably 
be slapped on the country. And I think the reformers are more 
concerned about relations with the West and about getting 
foreign investment, and therefore things that are of value to 
them can be harmed by Iran's pursuit of WMD. So there might be 
differences, whereas the conservatives are less concerned about 
Iran's relationship with the West, for instance.
    On the other hand, I would just make the point that in 
general in the Middle East security concerns trump economic 
concerns. So even though I think it is possible that some 
reformers might agonize over this dilemma, in the end of the 
day I think it is likely that they will go down the route of 
putting Iran's security interests over its economic interest.
    But nonetheless, I would just say there might be an opening 
here for the United States to explore and if given the 
opportunity down the road when we do enter into talks with the 
Iranians we should explore this. But I am not an optimist about 
the prospects of striking a deal even if the reformers were to 
consolidate control over most of the levers of government in 
Tehran. I am not sure there is a deal to be made there. But, 
again, it should be explored. I think more likely Iranians 
across the board will believe that they can go down the route 
of proliferation and not get caught, and they will be tempted 
to do so.
    The third course of action is imposing costs and delays. 
This is the approach that the U.S. Government to date has 
placed the greatest emphasis on. I think we have been fairly 
successful in imposing costs and delays on Iran's efforts to 
proliferate. In order to accomplish this objective, we have 
used various traditional policy instruments such as export 
controls, diplomatic demarches of foreign countries, and 
economic sanctions. Again, as I said, I think we have been 
fairly successful in delaying Iran's proliferation as a result.
    You probably cannot stop a determined proliferator, but if 
you can delay him, that is something. Some people tend to 
dismiss the importance of delay. Granted, I would prefer to 
halt rather than delay a program. But delay can have important 
benefits in that it buys you time to develop countermeasures to 
systems that the adversary is developing, such as missile 
defenses and the like.
    In addition, it is also potentially a hedge against perhaps 
the reversion of Iran to a more aggressive foreign policy in 
the future. If this were to happen, delay at least will mean 
that they have fewer capabilities in their hand than they would 
have had otherwise had their programs not been delayed.
    With regard to strengthening deterrence, I would say that 
basically deterrence lies at the heart of any effort to deal 
with a country of concern, such as Iran, that has already 
proliferated. In the case of Iran, I think there is a 
widespread perception in some quarters that Iran is an 
irrational state or is undeterable either because they are 
irrational or because they have a very high pain threshold. I 
would disagree with that.
    In general, I think experience has shown that although they 
do sometimes miscalculate, as all countries do, and I think 
there is a greater tendency on Iran's part than other countries 
to do so, in general its decisionmakers do act in accordance 
with a rational calculus. And while in the early days of the 
Revolution they may have had a very high pain threshold, as a 
result of the experience in the Iran-Iraq war and the 
tremendous damage this did to their country, and as a result of 
the death of the Ayatollah Khomeini who probably was the only 
person who could have inspired the Iranians to fight 8 years 
against Iraq and take the losses they did take, since the end 
of the Iran-Iraq war and the death of Khomeini, I think Iran, 
in terms of its ability to absorb losses, is much more of a 
normal state. I would just point to their very cautious 
behavior in 1991 in not really actively intervening in the 
South of Iraq during the uprising for fear that they might get 
dragged into a quagmire, and their behavior in the crisis with 
Afghanistan in 1998 to show that I think they have learned the 
lesson of the past and as a result they are a lot more 
cautious. The bottom line is we can use traditional tools of 
deterrence vis-a-vis Iran in order to mitigate the implications 
of proliferation.
    Finally, I would like to address the issue of mitigating 
the impact of proliferation through encouraging political 
change. I would agree with what Dr. Cambone said, that we have 
to do what we can in order to encourage political change in 
Iran as a way of mitigating proliferation as well as for other 
general policy reasons. I would say we do have a very limited 
ability to influence domestic politics in Iran, though I think 
we can shape the political environment in which the domestic 
power struggle occurs.
    In the case of Iran, the goal of U.S. policy should be to 
encourage the evolution of the regime in the direction of 
greater openness, freedom, and moderation. Domestic political 
change of this kind would hopefully result in the decline of 
radicalism abroad and more normal relations between Tehran and 
its neighbors, although I have no doubt that still relations 
between Iran and its Arab neighbors, between Iran and the 
United States will be characterized by tension, and relations 
between Iran and Israel will still be characterized by 
hostility. But it will be, I think, a better situation, at 
least a marginally better situation than the one that we are in 
now and that we found ourselves in in past years.
    Operationally what this means is supporting the Iranian 
people in their struggle for greater freedom while avoiding 
tainting particular Iranian personalities or movements with the 
potentially fatal U.S. embrace, in promoting contacts between 
the American and Iranian peoples, people-to-people contacts, 
seeking an official dialogue with Tehran which is the only way 
in which the issues dividing the two governments, including 
weapons of mass destruction proliferation, can be resolved, and 
continuing to highlight the connection between U.S. sanctions 
and Iranian policy in the three traditional areas of concern--
terrorism, Iran's support for violent opponents of the Arab-
Israeli conflict, and weapons of mass destruction. Bottom line, 
until Iranian policy changes in these three areas, sanctions 
that restrict Iran's ability to raise hard currency to fund its 
missile and WMD programs should remain in place.
    So, by way of concluding, let me just review my main 
points.
    First, the United States is unlikely to succeed in altering 
the range of Iranian motivations for acquiring WMD.
    Second, there is probably not much that the United States 
can do to alter the proliferation cost/benefit calculus of 
Tehran. While there might eventually be a slender chance for a 
deal with Tehran wherein Iran agrees to fulfill its arms 
control obligations in a verifiable fashion in return for the 
easing or lifting of sanctions by Washington, this remains an 
untested proposition and I am personally skeptical of the 
prospects for such a trade-off.
    Third, Washington has had much success in imposing costs 
and delays on the WMD programs of Tehran through traditional 
arms control instruments and economic sanctions. These should 
continue for as long as Iran remains committed to acquiring 
WMD. Time gained should be used to develop countermeasures to 
emerging threat capabilities and to encouraging political 
change in Iran in order to help mitigate the risks of 
proliferation.
    Fourth, given that missile and WMD proliferation by Iran is 
a reality, the United States will have to continue to rely on 
deterrence in dealing with this threat while developing the 
means to fight in a WMD environment should deterrence fail.
    Finally, encouraging political change in Tehran might help 
mitigate the problem of WMD proliferation to Iran but it is 
unlikely to solve it. Even if Iran's policies in many areas 
were to change for the better, from the point of view of the 
United States, in the coming years, Tehran's WMD capabilities 
are likely to be the greatest long-term obstacle to more normal 
relations between the United States and Iran.
    I look forward to your questions, sir. Thank you, Mr. 
Chairman.
    [The prepared statement of Mr. Eisenstadt follows:]
              PREPARED STATEMENT OF MICHAEL EISENSTADT \1\
    Iran is believed to possess both chemical and biological weapons 
and the missiles to deliver them, and it may well be the next nuclear 
power in the Middle East. Due to the volatility of Iranian politics, 
the clerical regime's involvement in terrorism, ongoing tensions with 
some of its neighbors and the U.S., and its continued denial of 
Israel's right to exist, halting--or at least hindering--Iran's missile 
and WMD programs will be a key U.S. interest in the coming years. 
Should these efforts fail, managing the consequences of a proliferated 
Iran (perhaps armed with nuclear weapons) will be one of Washington's 
most difficult future security challenges.
---------------------------------------------------------------------------
    \1\ Senior Fellow at The Washington Institute for Near East Policy, 
1828 L St. NW, Suite 1050, Washington, DC 20036. The author can be 
reached at <michaele@washingtoninstitute.org>. This testimony draws 
heavily on previous articles by the author, including: ``Can the United 
States Influence the WMD Policies of Iraq and Iran?'' The 
Nonproliferation Review, Summer 2000, vol. 7, no. 2, pp. 63-76; 
``Living with a Nuclear Iran?'' Survival, Autumn 1999, vol. 41. no.3, 
pp. 124-148, and; ``Iraq and Iran: Inevitable Proliferators?'' in David 
Albright and Robert Kelley (eds.), Proliferation Critical Paths: Trends 
and Solutions (forthcoming).
---------------------------------------------------------------------------
    The U.S. has a variety of options available to it in dealing with 
the general problem of Iranian proliferation: 1) alter Iran's 
motivations to acquire missiles and WMD; 2) influence its proliferation 
cost/benefit calculus; 3) impose costs and delays on its programs; 4) 
strengthen deterrence; and 5) mitigate the impact of proliferation by 
encouraging political change in Iran. I this paper, I will assess the 
applicability of each of these for the Iranian case and discuss the 
implications of this analysis for U.S. policy toward Iran.

Altering Motivations

    Iran's interest in WMD predates the Islamic Republic. Under the 
monarchy, Iran initiated a nuclear weapons program, as part of the 
Shah's drive to make Iran a regional power. The Islamic Republic has 
subsequently pursued the acquisition of missiles and WMD as a means to 
achieve self-reliance, in light of Iran's relative strategic isolation; 
as part of the Islamic Republic's efforts to transform Iran into a 
regional power; and to strengthen Iran's deterrent capability against 
various perceived threats. There are two conclusions implicit in this 
assessment. Iran's pursuit of missiles and WMD is not necessarily 
regime-specific; thus, this problem could well be with us even were the 
Islamic Republic to be replaced by another regime. Moreover, Iran is 
developing missiles and WMD not just to deal with perceived threats, 
but for other reasons--related to its drive for self-reliance (a core 
value of the Islamic Republic), and its desire to be treated as a 
regional power (a motivation shared by the monarchy and the Islamic 
Republic). So, even if Iran's security concerns could somehow be 
addressed through security assurances from the major powers, or the 
creation of a regional security system, such steps would probably not 
be sufficient to induce Iran to abandon its missiles and WMD (and 
particularly its nuclear program). Although the creation of some sort 
of regional security system is inherently desirable as a means of 
reducing tensions and enhancing stability in the Middle East, in the 
end there might not be much that the U.S. can do to influence the 
entire panoply of motivations underpinning Iran's missile and WMD 
programs.

Influencing the Proliferation Cost/Benefit Calculus

    From the little evidence we have on the subject, Iran's leadership 
seems relatively united over the desirability of acquiring missiles and 
WMD, seeing the possession of such weapons as a strategic imperative. 
However, if the private Iranian policy debate concerning missiles and 
WMD parallels public policy debates in Iran on other matters, it is 
possible--if not likely--that there are divisions in Iran's leadership 
over the importance of the interests that could be jeopardized by a 
decision to violate the country's arms control commitments (which could 
trigger the imposition of international sanctions). Iran's pragmatic 
reformers likely fear the potential impact of violating Iran's arms 
control commitments on the country's ties with the outside world (the 
West in particular) and the prospects for foreign investment--which is 
crucial if Iran is to get its economy on its feet, and avoid future 
political unrest. By contrast, conservative hard-liners care less about 
Iran's relations with the non-Islamic world. Such differences among 
Iran's clerical leadership might provide an opening that the U.S. could 
(and should) use to explore the possibility of altering Tehran's 
proliferation cost/benefit calculus--though I am not optimistic about 
the prospects for success. More likely, I suspect that Tehran's 
clerical leadership believes that they will be able to develop nuclear 
weapons without getting caught in the act. Here, the Chemical Weapons 
Convention (CWC) could be a crucial test case. If Tehran proves able to 
circumvent its CWC commitments without paying a price for doing so, it 
is even more likely to violate its Nuclear Nonproliferation Treaty 
(NPT) commitments.

Imposing Costs and Delays

    While U.S. policy has thus far not succeeded in altering Tehran's 
motivations or its proliferation cost/benefit calculus, it has 
succeeded in hindering Iran's ability to enhance its existing missile 
and WMD capabilities, and acquiring new ones, through various policy 
instruments, including export controls, diplomatic demarches, political 
arm-twisting, and economic sanctions. Together, such measures have 
delayed Iran's proliferation efforts, and constrained the evolution of 
its capabilities. Delay is important for several reasons. First, it 
buys time for the U.S. and its allies to develop countermeasures to 
Iranian capabilities. For instance, American efforts have delayed the 
development of Iran's Shehab-3 missile by more than 5 years (providing 
the U.S. and its allies with time to improve their theater missile 
defense capabilities), and prevented Iran from making much progress 
toward establishing a modern, diversified civilian nuclear 
infrastructure, that could serve as a springboard toward a clandestine 
nuclear program. Delay might also provide a hedge against the 
possibility that hard-line conservative clerics could gain control over 
all the major centers of power in Tehran in the future and pursue more 
aggressive foreign and defense policies. Should such a scenario come to 
pass, the conservative hardliners will have fewer means at their 
disposal with which to pursue their objectives. Conversely, should the 
trend toward greater moderation and openness in Iranian politics 
resume, it would be desirable to have forestalled Iran's development of 
missiles and WMD until the time that more moderate political elements, 
less likely to engage in terrorism or foreign adventures, are more 
firmly ensconced in Tehran. Even so, the U.S. could face difficult 
challenges in dealing with a reformist leadership should the latter 
insist on retaining Iran's missile and WMD capabilities (in the latter 
case--in violation of Iran's arms control commitments). If this 
assessment is correct, WMD may eventually be the greatest obstacle to 
more normal relations between Iran and the U.S.

Strengthening Deterrence

    Deterrence lies at the heart of any effort to deal with countries 
of concern--such as Iran--that have already proliferated. In the case 
of Iran, the main problem in establishing a stable deterrent 
relationship is not the putative ``irrationality'' of the regime or its 
reputed high threshold for pain. (Iranian leaders have proven to be 
quite rational, and while Iran may have had a fairly high tolerance for 
pain in the heady early days of the revolution, this has long since 
ceased to be the case.) Rather, political factionalism--rooted in 
personalities, ideology, and the very structure of the regime--poses 
the greatest challenge to a stable deterrent relationship. Persistent 
factionalism makes it difficult for the regime to implement policy in a 
consistent, predictable manner, and often leads to policy zig-zags, as 
different personalities, factions, or branches of the government work 
at cross purposes, act to subvert their rivals, or press the government 
to take actions inconsistent with its general policy line. And because 
this factionalism is rooted in the structure of the Islamic Republic, 
this problem will exist as long as the clerical regime retains its 
current structure. Nonetheless, the basics of deterrence applies: avoid 
ambiguity in defining ``red lines'' whose violation by Iran would 
elicit a harsh U.S. response; maintaining a strong and credible forward 
military presence in the region, and; know where Tehran draws its own 
``red lines'' so as to avoid inadvertent conflict or escalation. And of 
course, the U.S. needs to develop missile defenses and the means to 
operate in an WMD environment should deterrence fail, while developing 
countermeasures to various nontraditional means of delivering WMD that 
Iran might employ, such as terrorists, boats, or unmanned aerial 
vehicles.

Mitigating the Impact of Proliferation Through Political Change

    Since it may not be possible to alter the WMD motivations or cost/
benefit calculus of Iran, or to halt its efforts to augment its missile 
and WMD capabilities, and because deterrence is an uncertain 
proposition, the U.S. needs to focus on what it can do to encourage 
political change in Tehran to mitigate the impact of missile and WMD 
proliferation. Though the U.S. has a limited ability to influence 
domestic politics in Iran, it can shape the political environment to 
influence the outcome of developments there. In Iran, the goal of U.S. 
policy should be to encourage the evolution of the regime in the 
direction of greater openness and moderation; in practical terms, this 
probably means--at least in part--the emergence of a political system 
in which clerics play a less prominent role. Domestic political change 
of this kind would hopefully result in a decline in radicalism abroad 
and more normal relations between Tehran and its neighbors (even if 
some tensions persist). Operationally, this means promoting contact 
between the American and Iranian peoples; supporting the Iranian people 
in their struggle for greater freedom (while avoiding tainting 
particular Iranian personalities or movements with a potentially fatal 
U.S. embrace); seeking an official dialog with Tehran, which is the 
only way in which the issues dividing the two governments--including 
WMD proliferation--can be resolved; and continuing to highlight the 
connection between U.S. sanctions, and Iranian policy in the three 
traditional areas of concern (terrorism, support for violent opponents 
to the Arab-Israeli peace process, and the development of WMD). Until 
Iranian policy changes, sanctions that restrict Iran's ability to raise 
hard currency to fund its missile and WMD programs should remain in 
place.

Conclusions

    This assessment leads to the following conclusions: First, the U.S. 
is unlikely to succeed in altering the range of Iranian motivations for 
acquiring WMD; and while conditions are not yet ripe for the creation 
of a regional security regime that might help reduce the likelihood of 
conflict in a proliferated region, the U.S. should start laying the 
foundation for the eventual emergence of such a regional security 
framework. Second, there is probably not much that the U.S. can do to 
alter the proliferation cost/benefit calculus of Tehran. While there 
might be a slender chance for a deal with Tehran--wherein Iran agrees 
to fulfill its arms control obligations in a verifiable fashion in 
return for the easing or lifting of sanctions by Washington--this 
remains an untested proposition. It should, however, be tested when 
political conditions are more conducive in the context of future U.S.-
Iran negotiations. Third, Washington has had much success in imposing 
costs and delays on the WMD programs of Tehran through traditional arms 
control instruments and economic sanctions, and these should continue 
for as long as Iran remains committed to acquiring WMD. Time gained 
should be used to develop countermeasures to emerging threat 
capabilities, and to encouraging political change in Tehran, in order 
to help mitigate the risks of proliferation. Fourth, given that missile 
and WMD proliferation by Iran is a reality, the U.S. will have to 
continue to rely on deterrence in dealing with this threat, while 
developing the means to fight in a WMD environment should deterrence 
fails. Finally, encouraging political change in Tehran might help 
mitigate the problem of WMD proliferation to Iran, but it is unlikely 
to solve it. Even if Iran's policies in many areas were to change for 
the better (from the point of view of the U.S.), Tehran's WMD 
capabilities are likely to be the greatest long-term obstacle to more 
normal relations between the U.S. and Iran.

    Senator Cochran. Thank you very much, Mr. Eisenstadt.
    The question of the weapons programs and missile programs 
in Iran brings into focus the effort that we have of developing 
countermeasures, for example, the National Missile Defense 
program. What is your assessment of the efficacy of the Clinton 
Administration's National Missile Defense architecture, the 
single-site for the interceptors, given the pace of the 
programs in Iran and in North Korea, considering those two, 
what is your reaction to that, Dr. Cambone?
    Mr. Cambone. In my view, Senator, any deployment of a 
ballistic missile defense for the United States has got to be 
able to defend us from an attack from either the Asian sector 
or from the Middle East/Southwest Asia sector, that is, from 
either our West or our East, and it has to have the capacity to 
deal with the types of countermeasures that one can assume that 
these countries will make an effort to develop. Their success 
in developing them will be told when we see them, to be sure, 
but nonetheless, we have to be prepared for a set of 
countermeasures as well. And so, therefore, a single site in 
Alaska is insufficient to meet the kind of warning that I think 
we have been given with respect to the program in Iran.
    Senator Cochran. How sophisticated do you view the 
ballistic missile infrastructure in Iran compared with other 
states such as North Korea or Iraq?
    Mr. Cambone. I would think it is fair to say that they are 
certainly different. The Iraqi infrastructure has been knocked 
around a bit both in the Gulf War and subsequently in Desert 
Fox. But they are nonetheless still working on much shorter-
range systems that are permitted under the U.N. resolutions and 
so forth. The North Korean structure, from what we know of it, 
is one that has been designed to turn out what appear to be 
increasingly upgraded and extended ranges of what is basic 
technology in the Scud class with the added mixture of some 
solid rocket motor capabilities, evidenced by the effort to put 
the third stage of the Taepo Dong-1 in orbit. The Iranian one, 
at least again as far as one knows from the open sources, has 
three dimensions to it. One is the Scud-related effort, which 
is evidenced by the Shahab-3 program. The second is the 
assistance that has come from the Russians in the form of what 
is thought to be technology related to Russian SS-4, SS-5 type 
missile systems. And then there are also hints that there are 
solid rocket motor capabilities that the Iranians are 
developing as well. That is why I was intrigued by the report 
that the Shahab-3 had both liquid and solid propellant or fuel. 
I do not know what that means, you can ask the fellows behind 
me, they may know far better than I.
    But the point is that the Iranians have a multitude of 
options to pursue, which accounts in fact for the multitude of 
paths which the Intelligence Community is prepared to lay out 
for them to pursue. So on the whole, I think you can deduce 
that it is a fairly large infrastructure and one that is 
potentially capable of very sophisticated capability.
    Senator Cochran. Do you think Iran can become self-
sufficient in the development of long-range ballistic missiles?
    Mr. Cambone. Certainly.
    Senator Cochran. What impact would continuing foreign 
assistance have on their ballistic missile programs?
    Mr. Cambone. That foreign assistance has been there in 
certain respects from the very beginning. The Iranians had 
gotten their original missile systems from the North Koreans, 
they did not make them on their own. They have turned to the 
North Koreans for assistance initially in developing those 
systems on their own and then for supplying additional systems 
like the No Dongs. They have turned to the Russians and 
apparently to the Chinese for some assistance in their other 
programs. So the assistance is embedded in their programs. They 
are clearly looking to become independent of that foreign 
assistance. I cannot judge, Senator, because I have not got any 
information different than what I can find in the press whether 
they have crossed the threshold of being self-sustaining on 
their Scud-based systems or not. My guess is there is no reason 
why they can't be pretty close. They have been at this now for 
the better part of a decade and by now I would think they are 
pretty close.
    Senator Cochran. What do you see the political changes 
bringing to Iran's weapons programs? Are these changes 
occurring, more democratization, so-called, of the political 
system? Can we expect any change to flow from that to the 
military and the weapons programs, the ballistic missile 
programs?
    Mr. Cambone. No, I do not think so. The statements that 
have been made by public leaders in Iran indicate that they are 
squarely behind those programs irrespective of whether they sit 
on either side of the political fence.
    Senator Cochran. Earlier this year there was a press 
article which reported that North Korea had transferred missile 
engines to Iran for the Shahab-3 program.\1\ This appears to be 
different from Iran's usual missile development process which 
has been described as a hands-on process. Do you have any views 
as to why Iran would purchase these engines if they could have 
produced them on their own?
---------------------------------------------------------------------------
    \1\ The article from the Washington Times appears in the Appendix 
on page 45.
---------------------------------------------------------------------------
    Mr. Cambone. One can go through a lot of reasons. It may be 
that they have a short-term need for an engine and had 
airframes in which to put them and wished to be able to test 
something different than they have in development on their own. 
Some will argue undoubtedly that they are having trouble with 
their own programs and that this is an indication that the 
effort to become self-sustaining and so forth is in trouble. 
That is certainly a hypothesis.
    My own observation is that it is more worrisome to see them 
having done this, actually, because if it is possible for them 
to--if, indeed, what they did was take engines they purchased 
and then in a fairly short order put them in an airframe and 
launched them, it suggests that they can get other engines of 
bigger and longer-range missiles and put them in airframes and 
launch them. So depending on how you look at this problem, I 
think that there is in fact a dark side to it and one that we 
need to be conscious of.
    Mr. Eisenstadt. If I could, Mr. Chairman, just add 
something on this.
    Senator Cochran. Yes, Mr. Eisenstadt.
    Mr. Eisenstadt. Thank you, sir. I would just add that one 
of the two main bottlenecks in the Iraqi program in the late 
1980's in their efforts to develop an indigenous Scud knock-off 
was with the turbo pumps, which is an engine component. And as 
far as we know, at least as of about Desert Storm, they never 
succeeded in mastering that. As for Iran, some people have 
speculated that when the Shahab-3 was first test launched in 
1998 the engine may have blown up and that may have been the 
cause of its destruction. So it is possible that they may not 
have mastered all the engine components and therefore that is 
why they still had to rely, at least as of last year, on the 
North Koreans for the engines. But who knows where they are 
right now.
    Senator Cochran. There have been some discussions, as we 
all know, between the United States and North Korea trying to 
work out arrangements for a new energy program there and a 
transfer of energy resources so they will not have to have a 
nuclear reactor-based energy program, and opening up trade to 
make changes in the relationship. Has this led, in your view, 
and I will ask both of you, to any change in the relationship 
between North Korea and other states like Iran and their 
willingness to continue to sell WMD components or technology or 
missile systems? Have you seen any change, or is there any 
reason to believe they will not continue to do what they have 
done in the past?
    Mr. Cambone. Senator, I think you pointed to the evidence 
that at least the North Koreans are prepared to transfer 
engines, despite the fact that, as last I looked, the talks 
were still ongoing. So I do not know why we should expect that 
the North Koreans will end those programs. And I am not sure we 
would know at this point, for example, how much inventory there 
is, how much they have already transferred elsewhere. We know 
what we can see; we don't know what we don't know. And they 
have been a very active proliferant, haven't they? So there may 
be many more things they have already done that will come to 
light at a subsequent time.
    Senator Cochran. Mr. Eisenstadt.
    Mr. Eisenstadt. I just would second what Dr. Cambone said. 
I would also just add this apropos to a point that you asked 
earlier about Iran becoming a secondary supplier. It is quite 
possible you have, going back to North Korea, a flow of 
information as well as technology. The Iranians were involved 
at a very early stage in the No Dong program in terms of 
funding it, and it is quite possible that now as part of the 
pay-off they might be providing the North Koreans with some of 
the technology they are getting from the Russians in order to 
help the North Koreans improve their original product. I am 
simply speculating here, but I think this is just another angle 
that we should look at.
    Senator Cochran. Can you comment about the amount of time 
the United States would have in terms of warning about Iran's 
possession of an ICBM?
    Mr. Cambone. Senator, I think we have been warned. So my 
answer to that is the time is up.
    Senator Cochran. Mr. Eisenstadt.
    Mr. Eisenstadt. I second that.
    Senator Cochran. The most recent unclassified report on 
proliferation says that Russian firms faced economic pressures 
to circumvent export controls and did so in some cases, and 
that they failed in some cases regarding Iran to enforce its 
export controls. Are Russian entities continuing to transfer 
ballistic missile technology to Iran despite the changes in 
Russian export control laws?
    Mr. Cambone. I cannot answer that with any certainty, 
Senator. I read the press along with you and it appears that 
the relationship continues, the reports from the DCI and others 
suggest that the transfers continue.
    Senator Cochran. Mr. Eisenstadt.
    Mr. Eisenstadt. All I would add to that is that we had the 
story that appeared just a couple of days ago about the laser 
isotope enrichment facility. And as of a few days ago the 
Russians have told us that the sale is not going to go through. 
So I think this indicates that until now this has been 
continuing.
    The only thing I would point out in addition to this, one 
cannot help conclude when looking at accounts in the Russian 
press that this is not simply people freelancing, that there is 
a certain degree of culpability by various government agencies 
or collusion by various government agencies in this in terms of 
facilitating the transfer of technology and information. That 
being the case, I would assume that these things would continue 
even if there are temporarily steps taken to deal with certain 
high priority cases that have become politically difficult or 
problematic.
    Senator Cochran. You wrote an article, Mr. Eisenstadt, for 
Survival Magazine suggesting that because Iraq's chemical and 
biological weapons did not succeed in deterring the United 
States from involvement in the Gulf War, that Iran may believe 
that in a confrontation with Washington only a nuclear 
capability could enable it to avert defeat. Is that something 
you think we should consider likely, that Iran is going to 
develop that nuclear capability so it will be able to avert 
defeat?
    Mr. Eisenstadt. I think that is one, and perhaps one of the 
more important, motivations on their part in pursuing nuclear 
weapons. But I think there is a whole cluster of motives here, 
as I said before, and this is only one. And even if we could 
deal with, address Iran's concerns on this issue, there are so 
many other motivations out there which I think are beyond our 
ability to influence that I think they would still continue to 
go down this road.
    Senator Cochran. I was at a conference recently on U.S.-
Russia relations and one of the participants, one of the 
scholars suggested that the experience of Russia in Chechnya 
might very well have some spill-over effects into other 
countries where there might be sympathies with the local 
Chechen population that has been hard-pressed by the Russian 
military, and we have all read of atrocities, there have been 
atrocities I guess on both sides. Nonetheless, that is a very 
mean situation over there, and the question would be whether or 
not attention could be focused on Russia now from Islamic 
states or neighboring states or states in sympathy with the 
Chechen insurgents to the extent that Russia might have 
difficulties with Iran and others. Do you see this as a problem 
and changing the relationships in the Middle East?
    Mr. Eisenstadt. Thus far, Iran in its policy towards both 
Chechnya as well as Central Asia, the Newly Independent States 
in Central Asia, has generally subordinated ideology, its 
commitment to Islamic solidarity, to its state interests. And 
its state interests are preserving its relationship with Russia 
which from their point of view is, at least as far as we can 
tell, a strategic relationship. It may not be seen as a 
strategic relationship in Moscow, I do not know. I do not know 
whether this is simply a cash-earning enterprise or a way to 
cause problems for the United States or whether there is a 
strategic design here. But for the Iranians I think it is a 
strategic relationship. And from their point of view they have 
deferred to Russian interests throughout Central Asia and 
Chechnya. In fact, they have been almost completely silent 
throughout the war in Chechnya for that reason. So this has not 
yet become a problem in the relationship. And even though the 
two countries have differences with regard to the division of 
the resources of the Caspian Sea, they have not let this get in 
the way of the overall relationship because each has other 
equities that are at stake here that are important to them.
    Senator Cochran. Dr. Cambone, you mentioned that Russia 
continues to provide Iran with assistance that could aid their 
nuclear weapons development programs. What do you think is the 
potential impact of this assistance to Iran's nuclear weapons 
programs?
    Mr. Cambone. Well, Senator, I will say again that the 
finding or the judgment of the Rumsfeld Commission in 1998, in 
my view, stands. That with access to fissile material Iran 
could acquire, develop, possess a nuclear weapon in 1 to 3 
years of a decision to do so, and that undoubtedly the 
assistance that they have gotten from others has aided in that 
endeavor. But I cannot help but note that others bear 
culpability for the availability of the kind of information 
that a country like Iran makes use of. And if it is true, as 
someone testifying in a case in Albuquerque suggested, that 
much of the material that was said to have been downloaded from 
secure computers at Los Alamos is available in the open 
literature, then we have a severe problem on our hands.
    Senator Cochran. There is a good deal of concern around the 
world about the escalating oil prices. A lot of the oil that is 
produced comes from countries that we are talking about--Iraq, 
Iran, others in the Middle East, and Near East. What are the 
implications of the increases in oil prices on Iran's ability 
to acquire ballistic missile and weapons of mass destruction 
technology, Mr. Eisenstadt?
    Mr. Eisenstadt. To the degree that a lot of what they are 
getting, just about all of what they are getting is due to 
smuggling or what are on the face of them illegal transactions, 
money is basically the lubricant for all of these kinds of 
activities. The more money they have, the more they will be 
able to engage in these kind of smuggling operations. And not 
only that, up till recently they have had to focus their 
efforts. Because of a lack of resources they have had to 
prioritize their defense spending. Defense spending in absolute 
terms has been relatively small. And in relative terms, given a 
state the size of Iran, their defense spending has been 
relatively limited. As a result, they have had to focus on 
specific narrow capabilities whereas their preference would 
have been to have modernized their military across the board. 
Now I think there is a chance they might have greater 
opportunity to broaden their modernization efforts and to 
intensify their efforts to modernize their military 
capabilities in more areas than they have been able to until 
now.
    Senator Cochran. Dr. Cambone, do you have any comments or 
observations, any suggestions for changes in U.S. energy policy 
as a matter of national security interests?
    Mr. Cambone. [Laughing.] Well, Senator, I----
    Senator Cochran. Or is that too political?
    Mr. Cambone. Well, no, it just may be energy policy as such 
is well beyond my ken. But it clearly is the case that the 
increase in oil prices has been of assistance not only to Iran, 
but to the Russians, to the Saudis, and not least of which to 
the Iraqis. But I would like to focus though on the point that 
the Iranians have uncovered new oil and gas deposits. They are 
working very hard to establish a supplier relationship with 
India. They are working hard to protect their equities in the 
Caspian Sea. They clearly understand that there is money to be 
made here. But not only is there money to be made, there is 
entre into the international system as a supplier of energy. 
And that is an important position for them to occupy in their 
effort to legitimize themselves in the international community. 
And so the sort of longer-range point I think would be not 
whether they can manage to keep oil prices high, my guess is 
those prices will come down over time as pressures are put on 
all of the OPEC members. More important is their establishment 
as a supplier in the system, which in turn then gives them that 
much more leverage on the politics in the region and with 
respect to Western Europe and Japan. And that, I think, is an 
important development in Iran's strategic evolution that we 
need to take into account.
    Senator Cochran. Very interesting and helpful comments from 
both of you. Your statements are appreciated. We appreciate 
your spending the time and making the effort to develop the 
presentations that we have asked for. We think this will be 
very helpful to our better understanding of the situation in 
that part of the world and the proliferation issues that we 
face and the development of WMD programs in Iran particularly. 
We appreciate your being here. Thank you very much.
    Our hearing is adjourned.
    [Whereupon, at 4:25 p.m., the Subcommittee was adjourned, 
to reconvene at the call of the Chair.]
                            A P P E N D I X

                              ----------                              


   ANNOUNCEMENT OF THE VOICE OF THE ISLAMIC REPUBLIC OF IRAN RODEO 1

                           September 21, 2000

     iran: shahab-3 `non-military' missile `succesfully' test-fired

        The first Shahb-3 missile, using liquid and solid fuel, was 
        successfully test-fired on the first day of the Holy Defence 
        Week. Announcing the news, the minister of defence and armed 
        forces logistics said: The missile was built and tested for the 
        purpose of gaining the necessary technology in order to enter 
        the design and production stage of satellite guidance systems 
        [Persian: samane-haye ranesh-e mahvareh].

        Vice-Admiral Shamkhani added: The Shahab-3 missile has no 
        military use and only for achieving the preliminary stages of 
        new non-military operations.

                               __________

          ARTICLE FROM THE WASHINGTON TIMES, FEBRUARY 9, 2000

                  n. korea sells iran missile engines

                  by bill gertz, the washington times

    North Korea recently sold Iran a dozen medium-range ballistic 
missile engines, indicating the Pyongyang government has not curbed its 
transfers of missile know-how and equipment.
    According to a Pentagon intelligence report, North Korea supplied 
the 12 engines to an Iranian government agency involved in missile 
production in November.
    The engines arrived in Iran on Nov. 21 after they were spotted 
being loaded aboard an Iran Air Boeing 747 cargo jet that left Sunan 
International Airfield, about 12 miles north of the North Korean 
capital of Pyongyang, said U.S. officials familiar with the classified 
report.
    U.S. intelligence officials said the missile engines are the same 
as those used in Nodong medium-range missiles, which have a range of 
about 620 miles.
    The Iranians used Nodong engines in the first stage of the new 
Shahab-3 missile that was flight tested for the first time in July 
1998. That missile has an estimated range of up to 930 miles.
    Pentagon spokesman Kenneth Bacon declined to comment on the 
transfer citing a policy of not discussing intelligence matters.
    The general issue of weapons proliferation, however, is ``of great 
concern to us'' and officials have been trying to talk to the North 
Koreans about their missile trade.
    ``We obviously worry about proliferation by anybody and North Korea 
is one of those that we are particularly worried about,'' he said.
    The missile engine transfer comes amid continuing diplomacy by the 
Clinton administration aimed at trying to halt North Korea's missile 
proliferation. Two rounds of U.S.-North Korean talks in Berlin made 
little progress on the issue, officials said.
    The intelligence on the missile engine transfer also coincides with 
other recent Pentagon reports showing that China is continuing to sell 
missile technology to North Korea despite promises from Chinese leaders 
to halt the exchanges.
    The Pentagon also reported in November that North Korea was 
continuing with preparations for a test of its newest and longest-range 
missile, the Taepo Dong 2.
    The communist North Korean government announced a moratorium on 
missile tests during talks with U.S. officials. However, Pyongyang 
recently threatened to resume the missile tests after the Pentagon 
conducted its national missile defense test.
    Iran also is working on a longer-range version known as Shahab-4 
with an estimated range of up to 1,240 miles. That missile could use 
two booster stages equipped with the Nodong engines, or a single Nodong 
engine on top of a more powerful Russian-design motor, according to 
U.S. officials.
    The missile transfer has raised new questions about a recent 
decision by the Clinton administration to waive U.S. economic embargo 
provisions against Iran and allow Boeing Co. to sell engine parts to 
Iran for its fleet of 747 passenger jets.
    State Department officials have said the export license for the 747 
engine parts was approved in November--shortly before the engine sale--
with restrictions limiting the repairs to passenger versions of Iran 
Air 747s and not its fleet of 747 cargo jets. The license was approved 
by Deputy Secretary of State Strobe Talbott.
    Some within the administration opposed the Boeing parts sale 
because of fears the Iranians will use the jets for missile transfers. 
One U.S. national security official said he doubts the controls will 
prevent the Boeing parts from being diverted for military use.
    The installation work on the Iranian jetliners will be carried out 
by technicians from the German airline Lufthansa without U.S. personnel 
watching, the official said. Also, there is nothing to prevent the 
Iranians from using the upgraded passenger jets as cargo planes in the 
future, the official said.
    ``It would be very easy to rip the seats out and use them to ferry 
missiles and parts,'' the official said.
    Henry Sokolski, a Pentagon arms proliferation specialist during the 
Bush administration, said the North Korean engine sale also raises 
questions of Chinese government complicity in the engine deal.
    The Iranian airliner probably had to fly over or through China, a 
course that would have required approval by Beijing, he said.
    China several years ago denied overflight rights to an aircraft 
shipment of weapons from Kazakhstan to the Middle East after the U.S. 
government asked Beijing to block the flight, according to U.S. 
intelligence officials.
    On the parts waiver to Boeing, Mr. Sokolski said: ``This is the 
same kind of hairsplitting that has gotten previous administrations in 
trouble with exports to Iran and Iraq.''
    ``Dealing with high technology to Iran is bad business,'' Mr. 
Sokolski said. ``It can come back to bite you. Undoubtedly, if you 
engage in this practice there will be more of these kind of transfers 
in the future.''
    The CIA in the past has identified Russia and China as major 
suppliers to Iran's missile program, which includes developing a long-
range Shahab-5 that will be able to reach the United States.
    The engine sale is new evidence that North Korea also has become a 
major supplier for Tehran's missile effort.
    The CIA's annual report to Congress on the spread of missiles and 
nuclear, chemical and biological arms stated that during the first half 
of 1999 ``entities in Russia and China continued to supply a 
considerable amount and a wide variety of ballistic missile-related 
goods and technology to Iran.''
    Officials said the report did not include the intelligence from 
November on the engine transfer from North Korea.
    ``Exports of ballistic missiles and related technology are one of 
the North's major sources of hard currency,'' the CIA said, noting that 
North Korea has exported missile-related goods to the Middle East and 
Africa last year.
    A CIA spokesman declined to comment, and a State Department 
official had no immediate comment.


</pre></body></html>
